<html>
<title> - H-2B PROGRAM</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                              H-2B PROGRAM

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                CITIZENSHIP, REFUGEES, BORDER SECURITY,
                         AND INTERNATIONAL LAW

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 16, 2008

                               __________

                           Serial No. 110-81

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov













                     U.S. GOVERNMENT PRINTING OFFICE

41-796 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


























                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   CHRIS CANNON, Utah
ROBERT WEXLER, Florida               RIC KELLER, Florida
LINDA T. SANCHEZ, California         DARRELL ISSA, California
STEVE COHEN, Tennessee               MIKE PENCE, Indiana
HANK JOHNSON, Georgia                J. RANDY FORBES, Virginia
BETTY SUTTON, Ohio                   STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel
                                 ------                                

          Subcommittee on Immigration, Citizenship, Refugees, 
                 Border Security, and International Law

                  ZOE LOFGREN, California, Chairwoman

LUIS V. GUTIERREZ, Illinois          STEVE KING, Iowa
HOWARD L. BERMAN, California         ELTON GALLEGLY, California
SHEILA JACKSON LEE, Texas            BOB GOODLATTE, Virginia
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
LINDA T. SANCHEZ, California         LOUIE GOHMERT, Texas
ARTUR DAVIS, Alabama
KEITH ELLISON, Minnesota
ANTHONY D. WEINER, New York

                    Ur Mendoza Jaddou, Chief Counsel

                    George Fishman, Minority Counsel


























                            C O N T E N T S

                              ----------                              

                             APRIL 16, 2008

                                                                   Page

                           OPENING STATEMENTS

The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Chairwoman,...........................     1
The Honorable Steve King, a Representative in Congress from the 
  State of Iowa, and Ranking Member, Subcommittee on Immigration, 
  Citizenship, Refugees, Border Security, and International Law..     3
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Chairman, Committee on the 
  Judiciary......................................................     5

                               WITNESSES

The Honorable Bart Stupak, a Representative in Congress from the 
  State of Michigan
  Oral Testimony.................................................     7
  Prepared Statement.............................................     8
The Honorable Timothy H. Bishop, a Representative in Congress 
  from the State of New York
  Oral Testimony.................................................    12
  Prepared Statement.............................................    13
The Honorable Wayne T. Gilchrest, a Representative in Congress 
  from the State of Maryland
  Oral Testimony.................................................    14
  Prepared Statement.............................................    15
Mr. R. Daniel Musser, III, President, Grand Hotel
  Oral Testimony.................................................    30
  Prepared Statement.............................................    33
Ms. Mary Bauer, Director, Immigrant Justice Project
  Oral Testimony.................................................    40
  Prepared Statement.............................................    43
Mr. William Zammer, President, Cape Cod Restaurants, Inc.
  Oral Testimony.................................................    52
  Prepared Statement.............................................    52
Mr. Ross Eisenbrey, Vice President, Economic Policy Institute
  Oral Testimony.................................................    58
  Prepared Statement.............................................    61
Mr. Steven A. Camarota, Director of Research, Center for 
  Immigration Studies
  Oral Testimony.................................................    69
  Prepared Statement.............................................    70

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Chairwoman, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................    93
Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Chairman, Committee on the Judiciary...........................    84
Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................    95
Prepared Statement of the Honorable Madeleine Z. Bordallo, a 
  Representative in Congress from Guam...........................    96
Prepared Statement of the Honorable James E. Clyburn, a 
  Representative in Congress from the State of South Carolina....    97
Prepared Statement of the Honorable Ron Klein, a Representative 
  in Congress from the State of Florida..........................    97
Prepared Statement of the Honorable Carol Shea-Porter, a 
  Representative in Congress from the State of New Hampshire.....    98
Prepared Statement of the Honorable Charles W. Boustany, Jr., a 
  Representative in Congress from the State of Louisiana.........    99
Prepared Statement of the Honorable Tim Murphy, a Representative 
  in Congress from the State of Pennsylvania.....................   100
Prepared Statement of the Honorable Joe Wilson, a Representative 
  in Congress from the State of South Carolina...................   101
Prepared Statement of the Honorable George Miller, a 
  Representative in Congress from the State of California........   103
Prepared Statement of the Honorable Michael N. Castle, a 
  Representative in Congress from the State of Delaware..........   106
Prepared Statement of the Honorable Barbara Cubin, a 
  Representative in Congress from the State of Wyoming...........   107
Prepared Statement of the Honorable Dennis Moore, a 
  Representative in Congress from the State of Kansas............   108
Prepared Statement of the Honorable Paul Hodes, a Representative 
  in Congress from the State of New Hampshire....................   110
Prepared Statement of the Honorable Charlie Melancon, a 
  Representative in Congress from the State of Louisiana.........   115
Prepared Statement of the Honorable Thelma D. Drake, a 
  Representative in Congress from the State of Virginia..........   118
Prepared Statement of the Honorable C.A. Dutch Ruppersberger, a 
  Representative in Congress from the State of Maryland..........   135
Prepared Statement of the Honorable Mark Udall, a Representative 
  in Congress from the State of Colorado.........................   136
Prepared Statement of the Honorable Robert J. Wittman, a 
  Representative in Congress from the State of Virginia..........   140
Letter from the Honorable Robert C. ``Bobby'' Scott, a 
  Representative in Congress from the State of Virginia, to the 
  Honorable Zoe Lofgren, Chairwoman, Subcommittee on Immigration, 
  Citizenship, Refugees, Border Security, and International Law..   147
Legal Complaint submitted by Mary Bauer, Director, Immigrant 
  Justice Project................................................   156

                        OFFICIAL HEARING RECORD
       Material Submitted for the Hearing Record but not Printed

The Subcommittee on Immigration, Citizenship, Refugees, Border 
    Security, and International Law received many letters of support 
    for the H-2B Nonagricultural Temporary Worker Program. Because of 
    the voluminous amount of this correspondence, all of the letters 
    received are not printed in this hearing but are on file at the 
    Subcommittee.






















 
                              H-2B PROGRAM

                              ----------                              


                       WEDNESDAY, APRIL 16, 2008

              House of Representatives,    
      Subcommittee on Immigration, Citizenship,    
   Refugees, Border Security, and International Law
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 2:25 p.m., in 
Room 2141, Rayburn House Office Building, the Honorable Zoe 
Lofgren (Chairwoman of the Subcommittee) presiding.
    Present: Representatives Lofgren, Jackson Lee, Delahunt, 
Gutierrez, King, Goodlatte, and Gohmert.
    Also present: Representatives Conyers, Scott, and Smith.
    Staff present: David Shahoulian, Majority Counsel; Ur 
Mendoza Jaddou, Majority Chief Counsel; Andres Jimenez, 
Majority Professional Staff Member; and George Fishman, 
Minority Counsel.
    Ms. Lofgren. We are going to ask that the hearing come to 
order, and I understand that the Ranking Member is on his way. 
This is a hearing of the Subcommittee on Immigration, 
Citizenship, Refugees, Border Security, and International Law, 
and without objection the Chair is authorized to declare a 
recess of the hearing at any time.
    I want to welcome everyone to our first in a new series of 
hearings on issues related to immigration. These hearings are 
being held by this Committee in conjunction with other House 
Committees to examine a number of immigration-related issues 
that require our attention, as well as to clear up certain 
misconceptions.
    There are a number of misconceptions being promoted in the 
halls of Congress and in the press. Some have stated that 
Congress has done nothing to secure our borders, yet nothing 
could be further from the truth. Last year alone, this Congress 
appropriated $3 billion in additional emergency funding for 
border security, more than has ever been appropriated for such 
purposes.
    This Congress also passed legislation adding 370 additional 
miles of border fencing, 3,000 more border patrol agents, 29 
more ICE fugitive operation teams, and 4,500 additional 
detention beds. There were new criminal divisions for alien 
smuggling and trafficking, funding increases to strengthen 
programs to check employment eligibility, track on visitors, 
and identify incarcerated non-citizens, as well as numerous 
other measures to secure our borders.
    This Congress has done more to secure our border than any 
of its predecessors, and as the Department of Homeland Security 
itself admits, we have demanded more progress on the border 
than the agency can actually keep up with. I bring this up not 
simply to take stock of what we have accomplished, but to 
reflect on the fact that this Congress has acted quite a bit on 
border security and interior immigration enforcement, but has 
not yet acted much in the area of addressing immigration 
problems and fixes.
    For those who seek an enforcement for its policy on 
immigration, let there be no doubt, this Congress has not shied 
away from many proposals to significantly increase border 
security and immigration enforcement. But as this new series of 
hearings will demonstrate, there are still many pressing 
immigration issues beyond enforcement only that require our 
attention.
    Today we focus on one of those issues: the H-2B 
Nonagricultural Temporary Worker Program. This program is used 
by certain industries to secure workers for seasonal or other 
temporary needs, and it is primarily used in the landscaping, 
construction, forestry, tourism, hotel, and fishing industries.
    The program is capped at 66,000 workers per year, but over 
the last several years, a returning worker exemption in the law 
allowed returning H-2B workers to come to the United States 
outside the cap so long as they had counted against the cap in 
one of the preceding 3 years. At the program's height, this 
exemption basically doubled the size of the program, allowing 
some 120,000 H-2B workers to temporarily work in the United 
States.
    This exemption expired at the end of 2007, again capping 
the H-2B program at 66,000. Since then, most of us can attest 
to the outcry we have heard from businesses all over the 
country. Every Member in this room can speak to the screams of 
H-2B employers that have coursed through these halls over the 
last few months on behalf of the returning worker exemption.
    Today, we will hear from Members of Congress and H-2B 
employers about the resulting lack of H-2B workers and the 
effect this has had on certain industries. We will hear about 
the harm to businesses that rely on H-2B workers, as well as 
the harm to U.S. workers who rely on the viability and 
robustness of those businesses. According to them, 
reauthorizing the returning worker exemption is essential.
    But we will also hear about how a lack of protection in the 
H-2B program has allowed some businesses to exploit and abuse 
H-2B workers. Members, human rights advocates, and labor 
advocates will tell us that a lack of enforcement and 
insufficient protection in the law for H-2B workers have 
permitted some unscrupulous employers and labor recruiters to 
abuse the program.
    Due to such concern, they believe that any reauthorization 
of the returning worker exemption should be accompanied by new 
safeguards to ensure that H-2B workers are protected from 
exploitation, and that such exploitation does not undermine the 
working conditions of U.S. workers. Due to time limitations, we 
only have time to hear from eight witnesses today at our 
hearing, and I look forward to hearing from them.
    However, there are many others who have been important 
voices in the H-2B issue, and without objection their 
statements and letters will be placed in the record. They 
include Congressman George Miller, who was scheduled to be a 
witness today but who is actually in a markup in another 
Committee right now, so we will put his statement in the 
record. Also, statements from Congressman Ron Klein, 
Congresswoman Shea-Porter, Congressman Dennis Moore, 
Congressman Mark Udall, Congressman Bobby Scott, John Sweeney, 
the President of AFL-CIO, the H-2B Workforce Coalition, Hank 
Lavery, the President of Save Small Business, the American 
Hotel and Lodging Association, the Chesapeake Bay Seafood 
Industry Association, the National Ski Areas Association, the 
California Ski Industry Association, the International 
Association of Fairs and Expositions, Robert Johnson, the 
President of the Outdoor Amusement Business Association, the 
National Independent Confessionaries Association, and numerous 
other associations and businesses. We appreciate all their 
statements and letters.
    Now, we are obviously going to have to go for four votes, 
but before we do, perhaps we can get the Ranking Member's 
opening statement in, and then we will return immediately after 
our votes for the hearing.
    I recognize the Ranking Member.
    Mr. King. Thank you, Madam Chair.
    H-2B visas are temporary work visas that are generally used 
for low-skilled work. The unique feature of the H-2B visa is 
that the existence of the job itself must be temporary. A job 
must cease to exist within about a year, or must be seasonal.
    The annual quota of H-2B visas is 66,000. In recent years, 
the cap started to be reached. Almost immediately, the 
restaurant, tourism, landscaping and construction and other 
similar industries began lobbying for an increase in the cap.
    Members of Congress are currently under heavy pressure from 
these industries to increase the number of H-2B visas. Unlike 
such businesses, Members of Congress owe a duty to Americans to 
protect their jobs and wages, and not merely to provide a 
source of cheap labor for industry.
    The number of immigrants, legal and illegal, living in the 
U.S. is growing at an unprecedented rate. The U.S. Census 
Bureau data indicates that 1.6 million legal and illegal aliens 
settle in the country every year.
    There are roughly 12 million to 20 million illegal aliens 
currently residing in the United States. It is significant in 
our discussion today to note that almost half of all illegal 
immigration results from visa overstay.
    Poor, low-skilled American workers have borne the heaviest 
impact of immigration through reduced wages. The National 
Academy of Science has estimated that 40 to 50 percent of wage 
loss among low-skilled Americans is due to the immigration of 
low-skilled workers. Hourly wages for men with less than a high 
school education grew just 1.9 percent--not adjusted for 
inflation--between 2000 and 2007, and hourly wages for men with 
only a high school education declined by 0.2 percent between 
that same period of time.
    The magnitude of the number of immigrants with relatively 
little education also reduces job prospects for low-skilled 
Americans. Between the year 2000 and 2005, the number of 
jobless natives with no education beyond a high school degree 
increased by over 2 million, to 23 million, according to the 
current population survey. And during the same period, the 
number of less-educated immigrants--legal and illegal--holding 
a job grew by 1.5 million.
    Native-born African-Americans and Hispanic-Americans are 
particularly hit hardest by immigration. Harvard professor Dr. 
George Borjas reported that by increasing the supply of labor, 
immigration between 1980 and 2000 caused a 4.5 to 5 percent 
wage reduction for African-Americans and Hispanic-Americans, as 
compared with the 3.5 percent wage loss felt by native-born 
White Americans.
    For these reasons, the U.S. Commission on Immigration 
Reform, Chaired by the late Barbara Jordan, concluded that 
present immigration numbers are a source of economic injustice 
in our society. Since 1970, immigration has increased the 
number of unskilled job applicants faster than the number of 
skilled job applicants.
    First-year economics predicts that increasing the relative 
number of unskilled workers will depress their wages, because 
employers will not need to raise wages to attract applicants 
for unskilled jobs. Nonetheless, those who favor an expansive 
immigration policy often deny that the increase in the number 
of unskilled job applicants depresses wages for unskilled work, 
arguing that unskilled immigrants take jobs that natives do not 
want.
    This is sometimes true, but we still have to ask why 
natives don't want these jobs. The reason is not that natives 
reject demeaning or dangerous work. Almost every job that 
immigrants do in Los Angeles or New York is done by natives in 
Detroit and Philadelphia.
    When natives turn down such jobs in New York or Los 
Angeles, the reason is that by local standards, the wages are 
abysmal. Far from proving that immigrants have no impact on 
natives, the fact that American-born workers sometimes reject 
jobs that immigrants accept reinforces the claim that 
immigration has depressed wages for unskilled work.
    Not only do low--and an example would be a doctor driving a 
taxicab in Havana. Not only do low-skilled workers--Americans--
suffer because of higher levels of low-skilled immigration, we 
all do. Each year, families and individuals pay taxes to the 
government and receive back a wide variety of services and 
benefits.
    Robert Rector, of the Heritage Foundation, reported that in 
fiscal year 2004, the average low-skilled household--that is a 
household headed by persons with a high school degree--received 
$32,138 per household in immediate benefits and services from 
Federal, State, and local governments; however, the low-skilled 
household paid $9,689 in taxes. They do pay taxes, but the net 
average loss per household is $22,449. That burden falls on the 
rest of society.
    So while the annual costs to each low household are high, 
the costs over the lifetime of each household are far higher. 
The average net lifetime cost--benefit minus taxes--is to the 
taxpayer of household headed by persons with a high school 
degree, that would be $1.1 million over the lifetime of that 
household.
    Immigrants represent a substantial share of poorly educated 
persons in the U.S. While 9 percent of native-born adults lack 
a high school degree, the figure is 34 percent for legal 
immigrants, and roughly 60 percent for illegal aliens.
    Nearly a third of all immigrant households are headed by 
persons without a high school degree. Policies that would 
substantially increase the number of low-skilled immigrants 
entering the U.S. would significantly raise costs on the U.S. 
taxpayer.
    Because of all these reasons and the fact that there are 
currently 69 million working-age Americans currently not 
working in the United States--they are simply not in the 
workforce, according to the U.S. Bureau of Labor Statistics--I 
oppose expanding H-2B visa programs. Speaker Pelosi and many 
Democrats are advocating extending unemployment benefits 
because the job market is so bad.
    How can Democrats argue at the same time that Americans 
don't have enough jobs, but that we need more foreign workers? 
I am looking forward to the answers to these questions during 
our hearing today, along with the testimony of the witnesses.
    I thank you, Madam Chair, and I yield back the balance of 
my remaining time.
    Ms. Lofgren. Thank you.
    I understand that the Chairman of the full Committee, Mr. 
Conyers, has an opening statement which we will hear, and the 
Ranking Member of the full Committee is going to waive his 
opening statement. Then we will go to votes and then return.
    Mr. Conyers?
    Mr. Conyers. Thank you, Madam Chair.
    I begin our discussion today by commending you for breaking 
the logjam and getting us started. And I always listen to our 
Ranking Member very carefully because he wants us to; he leaves 
a few questions that he is waiting to find the answers to, and 
I want to find the answers with him, just so that we all move 
down this path with as much agreement on the fact portion as we 
can.
    It is agreed that foreign workers should not displace U.S. 
workers. But that may not be the question in this instance 
here, H-2B. The question is, how can we design a program to 
fill business needs while protecting American workers at the 
same time?
    And I come to this hearing and I make--this is a 
declaration of my good broker bona fide: I am not on the 
Schuler bill, the Stupak bill, the Clyburn bill, the Gutierrez 
bill, and I don't have a bill. So let's begin this with as much 
dispassionate conviction as we can.
    I have not been thrilled by the fact that--my report says 
that labor hasn't negotiated and won't negotiate. That is 
difficult in a legislative body like this. We can toss rhetoric 
around until the cows come home, but I agree with the 
Chairwoman. Let's start moving this ball down the line.
    I am thrilled by the fact that some are still talking about 
a comprehensive reform. If I can figure out how that is going 
to happen before we start breaking this thing down, I will be a 
devout and dedicated student to whoever is really still arguing 
that. We are focusing on H-2B, and so there is a shortage, 
there are big problems.
    I think that there may be a way with this Committee, which 
is now pretty well known for its ability to cooperate and work 
out difficult questions--Judiciary Committee doesn't have too 
many easy questions anyway. So let's put our best feelings, and 
let's attack this problem as professionally and as 
scientifically as we can. If we do that, there is a solution 
that will bring us all together.
    And I just want you to know, Madam Chairwoman, that that is 
my attitude as we begin these very important hearings. I thank 
you so much.
    Ms. Lofgren. Thank you, Mr. Chairman.
    We have 3 minutes left on the votes, so the Members will go 
over and vote with apologies to everyone who is here to hear 
the hearing. We will come back directly after the last vote; we 
have four votes, so that will be in about 20 minutes, for 
people who might want to go get a cup of coffee.
    [Recess.]
    Ms. Lofgren. The hearing is back in session. Let me 
apologize to all of you. It seems to never fail that whenever 
we start a hearing the bells go off, votes are called, and we 
are stuck on the floor for always a longer time than we expect.
    So I do appreciate the patience of our next panel of 
witnesses and all of the members of the public who are here to 
participate in this hearing. I know that other Members are on 
their way over, but in view of the extended period of time and 
in the interest of proceeding to our witnesses, I would ask 
that other Members submit their opening statements for the 
record.
    We have with us one of the Members who is going to testify, 
and I think maybe what we could do is begin in the hopes that 
the other two Members of Congress will soon be here. We have 
two distinguished panels of witnesses, and the first, of 
course, is Members of Congress.
    As noted earlier, Chairman George Miller was scheduled to 
testify, but he is unable to make it. In fact, he is on the 
floor right now managing another matter.
    We also are pleased to have Congressman Bart Stupak, who 
has represented the first congressional district of Michigan 
since 1993. Representative Stupak worked to create the H-2B 
program's returning worker exemption in 2005, and has 
introduced bipartisan legislation this Congress to make the 
exemption permanent. He also serves as Co-Chairman of the 
Congressional Northern Border and Law Enforcement caucuses, and 
is a valued Member of our Congress.
    Our next witness, Mr. Bishop, who I hope is on his way 
over, has represented New York's first congressional district 
since 2003. Congressman Bishop was born and raised in South 
Hampton, NY. He studied history at Holy Cross College in 
Worcester, MA, and earned a master's degree in public 
administration at Long Island University.
    He later went on to serve South Hampton College for 29 
years, leaving the position of provost in 2002 to run for 
Congress. Representative Bishop has been working closely with 
Representative Stupak to extend the returning worker exemption.
    And finally, we have Congressman Wayne Gilchrest, who has 
represented the first congressional district of Maryland since 
1991. Representative Gilchrest serves as senior Member of the 
Committee on Natural Resources and the Committee on 
Transportation and Infrastructure.
    Born in Rahway, New Jersey, he served as a Marine in the 
Vietnam War and was decorated with a Purple Heart, Bronze Star, 
and Navy Commendation Medal. Prior to joining Congress, he also 
taught American history, government, and civics in New Jersey, 
Vermont, and Kent County High School on the eastern shore of 
Maryland, where he lives today.
    As you know, colleagues, your full statement will be made 
part of the written record, and we would invite you now to 
deliver your testimony to us so that we may have some 
questions.
    And we will start with you, Congressman Stupak.

  TESTIMONY OF THE HONORABLE BART STUPAK, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Stupak. Thank you, Madam Chair, and Ranking Member 
King, for allowing me to testify before the Subcommittee on the 
importance of the H-2B program. My legislation, Save Our Small 
and Seasonal Businesses Act of 2007, was referred to this 
Subcommittee on April 20, 2007. That was nearly a year ago.
    After 3 successful years, the H-2B returning worker program 
expired on September 30, 2007. This program, with the 
grandfather clause, was authored by Mr. Gilchrest, myself, and 
others. The delay in acting on my legislation has hurt small 
and seasonal businesses in Michigan and throughout our Nation.
    Without the returning worker program, thousands of small 
businesses with seasonal needs were locked out of the visa 
process. In my district, restaurants, hotels, and resorts in 
Mackinaw City, on Mackinaw Island, and in the surrounding 
areas, use H-2B workers to help supplement their fulltime and 
seasonal American workers.
    This year, without the benefit of the returning worker 
program, the majority of the seasonal businesses in my district 
did not obtain the H-2B workers they will need this summer. Of 
the more than 70 businesses in northern Michigan, only one 
business in Mackinaw City and two on Mackinaw Island received 
H-2B visas this year.
    I thank the Subcommittee for inviting Mr. Dan Musser of the 
Grand Hotel, which has employed foreign workers for the last 35 
years when they could not find enough American workers to fill 
all the jobs available, to share his story with this Committee. 
These foreign workers offer short-term temporary help. H-2B 
workers cannot and do not stay in the United States.
    Unfortunately, it is often difficult for employers to 
recruit American workers who are willing to work a temporary 
fulltime job for only 5 or 6 months out of the year. As a 
result of Congress' inaction, small and seasonal businesses are 
facing significant labor shortages this year that will result 
in forced downsizing, decreased services, economic hardship, 
and even bankruptcy. Many businesses have already scaled back 
their operations and laid off U.S. workers.
    By not extending the H-2B returning worker program, 
Congress is endangering U.S. businesses and U.S. jobs that 
depend on these returning workers. I urge the Subcommittee to 
act on my legislation, the Save Our Small and Seasonal 
Businesses Act, H.R. 1843, or approve an extension of the H-2B 
visa returning worker program as soon as possible to preserve 
small businesses' access to seasonal workers.
    I ask unanimous consent that along with my statement I have 
the following attachment: my full statement, first district 
business testimonials--the Save Our Small Business Testimony--
as part of my full statement.
    Ms. Lofgren. Without objection, that will be made a part of 
the record.
    Mr. Stupak. All right. I will yield back the balance of my 
time.
    [The prepared statement of Mr. Stupak follows:]
 Prepared Statement of the Honorable Bart Stupak, a Representative in 
                  Congress from the State of Michigan

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Thank you, Congressman Stupak.
    We turn now to Congressman Bishop.

TESTIMONY OF THE HONORABLE TIMOTHY H. BISHOP, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF NEW YORK

    Mr. Bishop. Thank you very much, Madam Chairwoman and 
Members of the Subcommittee. I appreciate the opportunity to 
testify----
    Ms. Lofgren. I don't think your microphone is on. There, 
much better.
    Mr. Bishop. Thank you. I appreciate the opportunity to 
testify before you on the matter of H-2B visas, an important 
issue affecting my district. I particularly want to thank my 
colleague from Michigan, Congressman Stupak, for introducing 
H.R. 1843, and for all of his work and dedication in finding a 
solution for our small businesses.
    I represent New York's first congressional district, which 
encompasses the eastern half of Long Island, a set of coastal 
communities collectively referred to as the Hamptons, that 
experience an enormous seasonal influx of summer vacationers 
and second-home residents. Businesses in my district rely on H-
2B visas to keep them afloat during the busy summer season.
    For many businesses, their actual season begins as early as 
March and ends well after Labor Day, even into October. This 
means that hiring a student under the J1 visa program is not an 
option, as the work period lasts much longer than a traditional 
summer.
    These small businesses welcome the same seasonal workers 
back year after year; in fact, some have had the same workers 
return for the past 15 years. The vast majority of these 
trusted and well-trained workers faithfully return to their 
home country after their visa expires, and then return the 
following season.
    Employers who benefit from the H-2B visa program range from 
hotels and restaurants to employers such as landscapers, retail 
shops, sports and recreation facilities, transportation 
services, and estate management. In fact, most jobs in my 
district relating to the summer industry involve H-2B visas.
    On just the second day in 2008, the annual cap on H-2B 
immigration visas for migrant and seasonal workers was reached. 
Consequently, many family-owned small businesses that depend on 
such employees will be without the workforce they need to stay 
in business. Small businesses in my district are now 
exploring--but largely unsuccessfully--every possible option to 
cope with the shortage of summer labor that they are now 
presented with.
    While the lack of H-2B visas directly affects the small 
businesses that receive these workers, it also affects the 
local economy where these businesses reside. Year-round 
employees also suffer because their employers are forced to 
scale back their hours and wages due to the lack of workers to 
keep their businesses running properly.
    Without a returning worker exemption this year, many 
businesses in my district will be forced to dramatically scale 
back their activity, and as a result our communities will 
suffer. Like many of my colleagues who recognize the importance 
of H-2B visas to our economy, I support raising the cap 
permanently and incorporating this change into broader 
comprehensive immigration reform.
    Regrettably, partisanship and political obstacles to 
broaden reform were made evident when the Senate debated it 
last year. Therefore, in my view, we must resolve to enact 
those smaller-scale remedies we can agree upon today in order 
to alleviate the burden our broken immigration system imposes 
upon our businesses as we continue to address the security, 
economic, and political challenges required to enact broader 
reform.
    While we seek such a consensus, I respectfully ask that 
this Committee join Mr. Stupak, myself, and nearly 150 co-
sponsors of his bill, H.R. 1843. We can all agree upon the 
merits of this legislation, that we must find a solution to the 
crisis affecting our small businesses. We cannot allow their 
interests and livelihood to be held captive to the continuing 
impasse over immigration reform.
    We can also agree that helping small businesses retain 
their temporary workforces can alleviate one major strain on 
our economy. Stimulating growth and returning our economy to 
prosperity cannot occur without delivering such relief to 
America's small businesses.
    Madam Chairwoman, I thank you again for the opportunity to 
speak today about this important issue, and I would be happy to 
answer questions.
    [The prepared statement of Mr. Bishop follows:]
Prepared Statement of the Honorable Timothy H. Bishop, a Representative 
                 in Congress from the State of New York
    Madame Chairwoman and Members of the Subcommittee, thank you for 
the opportunity to testify on H-2B visas, an important issue affecting 
my district. I also want to thank my colleague from Michigan, 
Representative Stupak for introducing H.R.1843, the ``Save our Small 
Businesses Act,'' and for all of his work and dedication to finding a 
solution for our small businesses.
    I represent New York's First Congressional district, which 
encompasses the eastern half of Long Island--a coastal community that 
experiences an enormous seasonal influx of summer vacationers and 
second home residents.
    Businesses in my district rely on H-2B visas to keep them afloat 
during the busy summer season. For many businesses, their actual 
``season'' begins as early as March and ends well after Labor Day--even 
into October. This means that hiring a student under the J-1 Visa 
Program is not an option, as the work period lasts much longer than a 
traditional summer. These small businesses welcome the same seasonal 
workers back year after year. In fact, some have had the same workers 
return for the past 15 years. The vast majority of these trusted and 
well-trained workers faithfully return to their home country after 
their visa expires and come back the following season.
    Employers who benefit from the H-2B visa program range from hotels 
and restaurants to less obvious employers like landscapers, retail 
shops, sports and recreation, transportation services and ground 
keepers. In fact, most jobs having to do with the summer industry 
involve H-2B visas in my district.
    On just the second day of 2008, the annual cap on H-2B immigration 
visas for migrant and seasonal workers was reached. Consequently, many 
family-owned small businesses that depend on such employees will be 
without the workforce they need to stay in business. Small businesses 
in my district have exhausted every possible option to cope with the 
shortage of summer labor that the H-2B program has created.
    While the lack of H-2B visas directly affects the small businesses 
that receive these workers, it also affects the local economy where 
these businesses reside. Year-round employees also suffer because their 
employers are forced to close or dramatically scale back their hours 
and wages due to the lack of workers to keep their businesses running 
properly.
    Without a returning worker exemption this year, businesses in my 
district will be forced to close and my community will suffer. Like 
many of my colleagues who recognize the importance of H-2B visas to our 
economy, I support raising the cap permanently and incorporating this 
change into broader immigration reform. Regrettably, partisanship and 
political obstacles to broader reform were made evident when the Senate 
debated it last year.
    Therefore, we must resolve to enact those smaller-scale remedies we 
can agree upon today--in order to alleviate the burden our broken 
immigration system imposes upon our businesses--as we continue 
addressing the security and economic challenges required to enact 
broader reform.
    In the absence of such a consensus, I respectfully ask this 
committee to join Mr. Stupak, myself and nearly 150 cosponsors of his 
bill, H.R. 1843, the ``Save Our Small and Seasonal Businesses Act.'' We 
can all agree upon the merits of this legislation and that we must find 
a solution to the crisis affecting our small businesses. We cannot 
allow their interests and livelihoods to be held captive to the 
continuing impasse over immigration reform.
    We can also agree that helping small businesses retain their 
temporary workforces can alleviate one major strain on our economy. 
Stimulating growth and returning our economy to prosperity cannot occur 
without delivering such relief to America's small businesses. Raising 
the cap on H-2B visas and adding stability to this important program 
will help us achieve those goals. We cannot leave small businesses who 
want to do the right thing with the unacceptable choice of going out of 
business or hiring illegal workers.
    Madame Chairwoman, thank you again for the opportunity to speak 
today about this important issue and I am happy to answer any 
questions.

    Ms. Lofgren. Thank you very much, Congressman.
    And our last witness is Congressman Gilchrest.
    Welcome.

TESTIMONY OF THE HONORABLE WAYNE T. GILCHREST, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. Thank you very much, Madam Chairwoman.
    And I want to thank Mr. Stupak and Mr. Bishop for their 
work over the last many months to deal with this issue 
essentially as a separate entity, a separate piece of 
legislation, a separate, very important, vital issue for the 
Nation's small businesses, seafood industry, tourism industry, 
agriculture. This is a slice of the pie that has its own niche, 
unfortunately, in a broader, more comprehensive immigration 
legislation that is tied up in any one of a number of ways.
    But this particular issue has been successful for many, 
many decades, and across the Nation. Especially, you see--and I 
know I am a border State, so I am not up north like the two 
gentlemen to my right--but as Mr. Bishop said, the cap of 
66,000 H-2B workers was reached January 2. Well, there is no 
harvest to be--there are no crops to be harvested in 
agriculture in any one of our States in January, or February, 
or March, or April.
    And the seafood processing industry, the tourism industry--
this starts months and months later, and in years past, the 
Congress always found a way to appropriately vote for an 
exemption for those workers who were here the previous year. 
And that has not been done, because this whole issue is tied up 
with the broader, more comprehensive issue of immigration as a 
whole.
    Now, I would just like to make a couple of points, and I 
would like to ask unanimous consent that my full statement be 
submitted for the record.
    Ms. Lofgren. Without objection, it will be----
    [The prepared statement of Mr. Gilchrest follows:]
       Prepared Statement of the Honorable Wayne T. Gilchrest, a 
         Representative in Congress from the State of Maryland

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Gilchrest. And I am going to be a little colloquial 
here. I come from a district that is still carpeted with farms 
and dotted with fishing villages. It is a beautiful place, and 
people love to go there and look at the cornfields, and see the 
crab boats, and see the fishing boats, and see how they are 
still put from the fishing boats to the dock in baskets, or in 
some other way that has been done for 100 or more years.
    These industries still wake up at 3 o'clock in the 
morning--whether it is the tourist industry, the seafood 
industry, the agriculture industry--the families, for 
generations, would get up at 3 or 4 o'clock in the morning. But 
the landscape has slowly changed over the decades, especially 
the last 50 years.
    In mid-19th century, when they began to process seafood in 
a new and fascinating way, everybody on the Delmarva Peninsula 
had a job in that seasonal workforce. The agriculture industry 
was the same way. Both those industries faced changes, though, 
especially in the last 50 years.
    In the last 50 years there were more permanent jobs across 
the Delmarva Peninsula, so people didn't rely on these seasonal 
jobs, first working for a seafood processor, then working for a 
vegetable company that canned vegetables--and by the way, 
canning came in in the early part of the 20th century, and one 
agricultural processing plant in my district, called Reels, 
right on Route 50--60 or 70 years ago, they had 1,000 people 
working for them; then, as new technology came in, they are 
down to about 200. And out of that 200 people workforce, only 
60 are H-2B, but they can't find other workers to take their 
place.
    Another example is, my sister-in-law, when she got out of 
high school, went and picked crabs for a living. There is no 
way that my sister-in-law wants her daughter, who is now nearly 
30, to have done the same kind of thing. There are more 
permanent jobs; there are other opportunities.
    So the H-2Bs is filling a niche--a vital niche--of economic 
viability in rural America. This has nothing to do with illegal 
aliens. These provisions, these workers, come within a 
structure that is easily seen, easily identifiable.
    Now, the other issue I want to bring up here is, H-2Bs do 
not take away from American jobs, because the seafood industry, 
the agriculture industry, the tourism industry, they still go 
through the following things: they work with the State's 
unemployment agency to find workers on a regular basis, they 
recruit local and regional people from the State detention 
centers--from State and local prisons--to come work as seasonal 
workers, they increasingly advertise in paper, they now hire 
mentally and physically disabled people to do the work that 
they can do, they work with private industry councils, they 
send daily buses from the eastern shore--in some cases a 3-hour 
drive--to Baltimore City to get people to work in these 
seasonal places that otherwise would not have jobs, they work 
with all kinds of religious organizations to locate people, 
they run the gamut to get their families to work in the 
business, to get local people to work in the business. This is 
not replacing any local employment. And they pay good wages.
    The point is that you don't find too many people with 
college degrees, who are thinking they want to go to college, 
that are going to spend too much time in a chicken house from 
12 o'clock at night to 5 o'clock in the morning picking up, by 
hand, 40,000 chickens. You are just not going to find it. Or 8 
or 12 hours a day picking crab meat, or canning vegetables.
    So, while still a good portion of the local population 
works in these facilities, not enough do it to make it 
economically viable. And the H-2B program, which is a 
successful program, needs a little fine-tuning right here to 
keep the rural landscape in place, in the Delmarva Peninsula--
my district--so that we can continue to have this place 
carpeted with farms and dotted with fishing villages.
    And Madam Chairman, thank you very much for the time.
    Ms. Lofgren. Thank you very much, Mr. Gilchrest. 
[Applause.]
    We are going to allow that applause for Mr. Gilchrest, but 
we do ask that displays of emotion be kept under control in the 
hearing.
    This is a time now where we have, as a Committee, an 
opportunity to pose questions. And I understand that we are 
delayed, so if any of you have another obligation that you have 
to attend to we would understand that, but we hope that you 
could stay for a few questions at least. And I see no one is 
leaving, so I am going to begin.
    I am sure that you have all seen the newspaper articles 
about allegations of abuse of H-2B visa-holders where there was 
a serious concern raised. Do you believe that if we were to 
move forward on some resolution on this returning worker issue, 
that putting in some protections to avoid unscrupulous 
employers doing something that is harmful to employees should 
be included?
    Mr. Stupak. Madam Chair, as you know, we have adopted many 
of those in the piece of legislation we worked on very closely 
over the last few months. But I would suggest that it may not 
necessarily be the employers that are the unscrupulous people 
here, but some of the agents----
    Ms. Lofgren. The recruiters.
    Mr. Stupak [continuing]. From other countries, the 
recruiters, that make false hopes and mislead people. So again, 
we don't disagree there may have been some problems down in the 
Gulf after Hurricane Katrina, but don't destroy the whole 
program because of a few bad apples. This program has been 
going on for a long, long time, and Wayne has pointed out how 
important it is to his district; it is just as important to my 
district.
    We have businesses not opening. Now, is that what we want, 
especially in a time of tough economic times, that businesses 
do not open because we deny a program that works, where people 
come in legally and leave?
    It doesn't make a lot of sense. Don't paint everybody with 
a broad brush. There are some problems; let's work on them.
    Ms. Lofgren. Okay.
    Mr. Bishop. I certainly would support protection for 
employees, and I am happy to say that in my district, if there 
are abuses they are very much the exception----
    Ms. Lofgren. I have not heard of any in any of your 
districts.
    Mr. Bishop. I am not aware of any, and I absolutely would 
support employee protection.
    Ms. Lofgren. Mr. Gilchrest?
    Mr. Gilchrest. I would be in favor to make sure that the 
unscrupulous element in this program be apprehended and duly 
punished. We do see those things in an array of foreign workers 
coming into this country. I think the program, as it now sits, 
with the proper oversight, as the way it now exists and 
functions in our districts--I know that where I live there is 
oversight. They look at people that are unscrupulous; they look 
for fraud; they look for some type of organized illegal 
activity.
    So the program as it now is situated, I think, functions 
quite well. What will happen though, and what we want to avoid 
is, a lot of these businesses do not want to go out of work; 
they do not want to go out of business.
    So a lack of fine-tuning this H-2B program, you are going 
to see as a matter of human nature, as a matter of the way it 
works in this world, you are going to see more criminal 
activity; you will see more coyotes; you will see more people 
bringing in workers that aren't documented, that are brought in 
illegally, that have false documents. We have tracked it years 
ago from Guatemala--a certain village in Guatemala--to a 
certain place in Texas, to a certain place in North Carolina 
where they got their papers, right up to our district.
    We cleaned it up. We ensured that people were appropriately 
brought into this country. And if this H-2B problem is not 
solved, we are going to exacerbate the problem of illegal 
activity.
    Ms. Lofgren. Let me ask one final question to each of the 
three of you. As you are aware, I think, I was very much a 
supporter--and still am--of comprehensive immigration reform, 
and I was very disappointed when the Senate was unable to 
proceed, and I still have very strong hope that we will be able 
to enact comprehensive immigration reform.
    Some are concerned that if we take action on elements of 
what would be in comprehensive immigration reform, that we 
would impair the ability to actually achieve a broader solution 
to the problem. What is your answer to that? I mean, would you 
work on comprehensive immigration reform if there were a 
resolution made to this----
    Mr. Stupak. Well, as the Chair knows, Mr. Gutierrez and Mr. 
Delahunt and a number of us have been working for the last 
several months to actually take the first step toward 
comprehensive reform on all aspects of immigration, legal and 
illegal. And we were within a few votes of it until the rug got 
pulled out just before Easter. Otherwise, this would have been 
resolved.
    Those discussions, I think, have set a basis in this House 
of Representatives, where real discussion can occur, and 
hopefully we can keep the politics out and get those last 14 to 
15 votes we need to do a comprehensive reform that makes sense, 
that is legal, that secures our border, that secures our jobs, 
and secures our future in this country.
    Mr. Bishop. I very much support comprehensive reform. In 
fact, I am a co-sponsor of Mr. Gutierrez's bill, and I also 
worked closely with and supported the efforts of Mr. Gutierrez 
and Mr. Stupak to come up with sort of a somewhat truncated 
version of comprehensive reform that we thought we might be 
able to use to move H-2B visa. And I, too, am sorry that it 
didn't work.
    But I believe that the H-2B visa problem that we currently 
have is an example of why comprehensive reform is such a 
requirement, and I certainly understand the efforts to use H-2B 
as the means to move us closer to comprehensive reform, and I 
support it.
    Ms. Lofgren. Mr. Gilchrest?
    Mr. Gilchrest. I am in favor of comprehensive reform. 
However, at this point comprehensive reform--I will make a 
statement even though I am a part-time Methodist since the Pope 
is in town--comprehensive reform, to this Congress, is a Hail 
Mary. And it is just not something that we think--to me, that 
means a long pass; I don't know what it means to the Catholic 
Church. [Laughter.]
    To me it means a long pass.
    Mr. Gilchrest. But anyway, I think the short pass, right 
here, is going to set us up for the goal line. And I think H-2B 
sets a positive precedent that people can get around, separated 
from all the other complicated issues of comprehensive 
immigration reform.
    This is a vital, urgent piece of legislation that is 
positive; we can all get behind it. And I think this positive 
gesture--passing--will ease the angst and the anxiety and the 
apprehension out there in the small business world, and we can 
move forward with comprehensive reform after this pass.
    Ms. Lofgren. Thank you.
    My time is expired, so I turn now to the Ranking Member for 
his questions.
    Mr. King. Thank you, Madam Chair.
    Gentlemen, I appreciate your testimony, and I can't help 
but reflect back upon an event that I recall taking place, many 
of them in the White House in fairly intense discussions about 
how to put together the comprehensive immigration reform. And 
it lists you quite a list of organizations, many of which are 
supporting this H-2B bill, that signed onto that in promoting 
the comprehensive immigration reform
    And the pact, as I understand it, was that everyone who 
wanted to make an amendment to their particular visa category, 
whether it is H-2Bs, 1Bs, H-2As, J1s, whatever they might be, 
that it would stick together and follow one comprehensive plan, 
and not break from the herd, so to speak, and go ask for a 
single amendment to a particular category, in which case we are 
talking H-2Bs here.
    I saw that coalition stick together all the way through the 
debacle in the Senate when the switchboards got shut down 
twice. And I want to make sure that the record reflects my view 
on that, and that is that although I appreciate the arguments 
of all the parties involved, when you put it together 
comprehensively, the bargain was this: the bargain was that 
enforcement of our existing laws was not going to come unless 
this policy, which I will call a hostage to enforcement, was 
comprehensive immigration reform. In other words, a right to 
enforcement was held hostage to an ultimatum that we would pass 
comprehensive immigration reform.
    Now, that coalition apparently has broken up, and I am 
seeing entity after entity come here on this Hill and ask for 
their piece of immigration reform. I see this as one of those 
pieces; I just lay that backdrop for my questions which I 
expect to ask.
    And then I would turn first to Mr. Gilchrest, whom I met a 
lady on a plane the other day that said she had never voted 
before, but she voted for you because she liked your name. So I 
will pass that along in the record.
    Mr. Gilchrest. I didn't hear you.
    Mr. King. I met a lady on the airplane the other day, way 
into the Midwest, that said she had never voted in her 
lifetime--she was in her mid-50's--but she had just voted in 
the past primary because she liked your name. So that is my 
compliment, Mr. Gilchrest.
    Mr. Gilchrest. Was she Scottish?
    Mr. King. I am not sure what she was; I didn't profile her. 
But in any case, she voted for you and was quite proud to do 
so, and I remarked how unusual that would be to meet somebody 
in the Midwest in that fashion. So that is my pat on the back 
to my friend from Maryland, and I appreciate your testimony.
    A gentleman sat in that same Chair as you some months back 
and testified that the recruitment lines for employment into 
the Delmarva Peninsula were stronger to Poland than they are to 
the Potomac. In other words, there is a fairly high degree of 
unemployment and people who are not in the workforce here, 
especially in the district, and the short ride that it is up 
the coastline to go to work in those facilities that you 
mentioned seems to not be where the recruiting helped. The 
recruiting helped from Poland rather than the Potomac River.
    And so my question is, do you agree or disagree with Mr. 
Roy Beck, who made that statement and supported that statement 
statistically?
    Mr. Gilchrest. Who made the statement?
    Mr. King. Roy Beck, the----
    Mr. Gilchrest. I would like to see Roy Beck's statistics. I 
know there are some Polish people that work in Ocean City, if 
you find a Greek diner or some gang on the boardwalk in Ocean 
City or some other places, but I can tell you, Mr. King, that I 
have never seen--and it is fine. If someone from Poland wants 
to work in a crab house or pick up chickens----
    Mr. King. If they are legal, I am fine.
    Mr. Gilchrest [continuing]. Or work picking tomatoes to put 
in a can, that is fine, if that local business cannot find that 
help.
    Mr. King. I think that I--my clock is ticking, and I----
    Mr. Gilchrest. But I am not sure where he got his 
statistics from, but I sure would like to see them----
    Mr. King. They are part of the record, and I will see to it 
that you do get those statistics, and I appreciate your 
viewpoint.
    I would just like to ask a broader question, and first, I 
think my time is going to be such that I am going to be more 
specific instead, and turn to Mr. Stupak, and ask you, this 
bill proposes an increase of 66,000 a year for the duration of 
the authorization, which theoretically could take us to 
462,000. Now, I understand that there are assurances that there 
aren't American workers that are being displaced, but there is 
policy out there in existing visa programs that allows for an 
American worker to show up on the job if they are qualified, 
and the employer then, as they have certified that they tried 
to hire Americans as required in the first half of the 
contract, to hire Americans.
    Would you entertain such a policy to allow American workers 
to be able to step up on the jobsites and take a job that they 
claim they may be displaced from?
    Mr. Stupak. The legislation that I have written does not 
increase the cap; it stays at 66,000. We grandfather in those 
who have worked in previous years to go back to that same 
employer. So we do not increase the cap in our legislation; it 
remains at 66,000. As far as the----
    Mr. King. Is it not cumulative?
    Mr. Stupak. Pardon?
    Mr. King. Isn't your bill cumulative?
    Mr. Stupak. Pardon?
    Mr. King. Isn't your bill drafted so that it is cumulative: 
an additional 66,000 each year unless it is not met?
    Mr. Stupak. Sixty-six thousand each year, period. What we 
have is a grandfather. If I worked 1 of 3 years at the Grand 
Hotel at Mackinaw Island, I can go back to the Grand Hotel at 
Mackinaw Island and my employment in the next year does not 
count toward the 66,000 cap.
    Mr. King. Then would you, into the record, let us know what 
is the maximum number that might be----
    Mr. Stupak. I believe the most ever is right around 
130,000.
    Mr. King. But under your bill, what would be the largest 
number we could have?
    Mr. Stupak. The most ever is 66,000. Then you have to 
figure out how many are grandfathered in.
    Mr. King. How many would you expect? Have you calculated 
that?
    Mr. Stupak. Again, the most we have ever had has been, with 
the 66,000, you had about another 60,000. So it is about 
130,000 is the most we have ever had.
    Mr. King. So I guess what you are saying is that your bill 
just refreshes previous policy with regard to H-2B numbers.
    Mr. Stupak. Yes. It is an extension of the Gilchrest bill 
that Mr. Gilchrest and I wrote back in 2005 to afford problems 
he pointed out were livid then. We put it in then; it worked 
out very well for 3 years.
    Mr. King. I will take another look at that language, and I 
just ask in deference for an additional question, and that is 
that, as in my statement with regard to my questions, I noted 
that there are a number of things that the growth of our legal 
immigration--it is about 1.3 million a year. And would you 
entertain finding offsets for this proposal so that we could 
reduce another visa category in proportion to the increase for 
H-2Bs so we don't end up with 2 million or 3 million legal 
immigrants in the country in a year?
    I mean, is the priority high enough to do that? And I would 
suggest, perhaps, the 50,000 visa lottery program is just 
simply a grab-bag lottery without any merit base.
    Mr. Stupak. Well I hope, Mr. King, that when the other 
witnesses, especially the employers who come forward and 
testify after us, you listen to their stories. It is not simply 
a matter of finding someone to replace a job. You train them, 
you do all this, and you like to have them come back year after 
year. Like at the Grand Hotel, some of them come back with 20, 
25, 30 years.
    How do you replace an employee, whether it is an American 
employee or an employee who is a foreign worker who has been 
there for 20, 25 years, knows your business, knows your 
customers, gives you that extra little sense? I don't think we 
should require every employer to every year have to retrain new 
employees for a new job.
    Mr. King. Mr. Stupak, with full respect, though, the 
question on offsets--would you look and see if this expansion 
to perhaps 123,000, that number of 63,000 or 66,000 additional, 
would you be willing to look and see if you could find some way 
to offset those numbers, perhaps from another visa category, so 
we didn't increase the overall total? Would you be in favor of 
that?
    Mr. Stupak. I am willing to look at anything to help out 
legal immigration. If there is an offset that has to be taking 
place, I am willing to take a look at it. But this bill has 
been the same ever since this program has been created at 
66,000.
    Ms. Lofgren. The gentleman's time has expired and we have 
gone over, and we have, for some reason, a motion that the 
Committee rise. So I would suggest maybe we can get in a few 
more questions before we rush over on that pressing matter.
    I recognize, now, Mr. Gutierrez for his questions.
    Mr. Gutierrez. I thank the gentlelady very much.
    First I want to say to Bart Stupak and Tim Bishop, it is 
wonderful working with both of you.
    And I want to say to my good friend Wayne Gilchrest, it is 
good to see you. We see each other frequently very early in the 
morning; maybe not as much during working hours. We should do 
more to get together during working hours.
    And to say to the gentlemen that there is absolutely no 
doubt in my mind that we need to renew guest worker programs in 
the United States of America, and that H-2B--I mean, it is my 
position it is going to be approved by the Congress of the 
United States, there is going to be an extension of it in the 
Congress of the United States. That truly is not the question 
that we have before us.
    The true question that I think we have before us is, what 
are we going to do about the larger, most exploitive guest 
worker program we have in the United States of America? And 
that is the 12 million, the 14 million undocumented workers 
that each and every day work in the most exploitive conditions 
here in this country.
    And if the Congress of the United States is going to 
respond to a well organized, well financed industry sections of 
this country, or is it going to respond to those that don't 
have as well organized and as well financed advocates here in 
the Congress of the United States--the undocumented worker that 
works so hard here in this country?
    I think the real question for us is, as we build a 
coalition to get and to make sure that industries which need 
immigrant labor in order to be sustained, to survive, and 
indeed to prosper, whether or not we are going to make sure 
that Eduardo and Mildred Gonzalez--American citizen Eduardo, 
petty officer, white, in Iraq, whose wife, Mildred, is being 
deported from the United States--are we going to have the same 
energy and applause and passion to make sure that Petty Officer 
Gonzalez, within our broken immigration system, is going to be 
asked to come back after his third term in Iraq defending this 
Nation to his wife and to his children?
    And not only Petty Officer Gonzalez, but we have Angel and 
Adair Rodriguez. We have a U.S. sailor from Massachusetts 
asking, ``Don't deport my wife.'' We have a widow whose husband 
died in Iraq, who is being deported and being asked to leave 
the United States of America. We have a father of a U.S.-born 
soldier killed in Iraq who is being deported after his son died 
in the Iraq defense, being deported from the United States of 
America.
    You know, we have these situations going on each and every 
day. We have an Arkansas woman, left in a cell for 4 days with 
no food and no water by ICE agents, because we are rapidly 
expanding our deportation and targeting, and saying what is I 
think a very racist symbol, ``Return to sender.'' It is 
dehumanizing, as though they were a parcel, something that 
isn't human of flesh and blood, with a soul.
    Four days, being held in a detention center in Arkansas, 
the rapid death--we are doing a great job in the United States 
of America, Madam Chairwoman. And we are proud that this 
Congress, this democratic Congress, has done more to do 
enforcement.
    To do enforcement? The fact is that workers are getting 
killed less, being hurt less in the job force, unless your last 
name happens to be Gonzalez or Rodriguez. That is just the 
facts.
    And if you are undocumented, you are twice as likely to be 
Latino and to die. Last year alone, 632 immigrants died 
working. Three hundred and five--not one of them should have 
died.
    But the fact is, we know that this exploited class of 
undocumented worker, the largest, I suggest to everybody, guest 
worker program that we already have to contend with, must be 
responded by the Congress of the United States of America. The 
true question before us isn't whether H-1B or H-2B, or whether, 
you know, Microsoft or Bill Gates are going to be tickled pink, 
or whether the lawns in front of the house that I live at are 
going to be nice and green this spring and this summer; that is 
going to get done.
    That is going to get done. I think we all know that. Let's 
not fool ourselves about what the true debate is really about 
here in the Congress of the United States. And it is whether or 
not this Congress is going to have the courage to not only 
resolve the very necessary issues that the gentlemen have 
brought before us, which I think are necessary issues that we 
need to embrace and to make sure, but whether or not those 
workers under the H-2B program are going to be fully protected.
    I have got to say in closing, Madam Chairwoman, that I have 
to take a step back when we begin these hearings by chastising 
the AFL-CIO, and when we begin by giving ourselves a stamp of 
approval and a stamp of pride by saying, ``We have done more to 
enforce the laws than any Republican Congress.'' I thought we 
were elected here to do comprehensive immigration reform and to 
protect workers here; that is certainly going to be my focus.
    In ending, I would just like to say, yes, we need to pass 
the ball. We need to get a touchdown, too.
    You know, when women were fighting for the right to vote in 
this country, I don't think they wanted a pass; they wanted a 
touchdown. They wanted to be able to vote. They didn't want 
some more pots and pans and another, you know, apron to be sent 
back to the kitchen.
    When Black people in this country protested for their civil 
rights, they didn't want a pass; they wanted a touchdown. They 
didn't want just a new bus for the Black people and, you know, 
separate but equal. They wanted to be integrated fully into our 
society and our economy.
    When workers wanted a 40-hour work, and they wanted minimum 
wage, and they wanted certain standards, they didn't want you 
to say, ``Okay, you get Sunday every other week, but you are 
still going to get hurt, and you are still going to be 
underpaid.''
    We can do more as a country. Those immigrant workers that 
have been testified about here today in the H-2B are critical 
and essential to our economy. Let's begin to deal with this in 
a much more comprehensive manner so that we can all really feel 
that we have done our duty and our job.
    Thank you.
    Ms. Lofgren. Thank you.
    Mr. Gutierrez. And I thank the gentlelady and the 
Chairwoman for indulging me, because I know the clock ran out 
about 60 seconds ago.
    Ms. Lofgren. That is all right.
    We will turn now to Mr. Delahunt for his 5 minutes, more or 
less.
    Mr. Delahunt. Well, I will thank the Chair, and I do hope 
that the gentleman from Illinois' prediction that the H-2B 
program will be extended actually materializes into a reality. 
I can assure him--and I think I speak for the three gentlemen 
at the desk--that we share the outrage that he has passionately 
articulated, particularly when we have members of our armed 
forces who are out demonstrating their commitment to this 
country and return home to find that their family members are 
subject to deportation.
    I think you know that, Mr. Gutierrez, that we stand with 
you on that. And I can also assure you that protection of 
workers is a priority for myself, and I know for Messrs. Stupak 
and Bishop and Gilchrest. I am proud of the Commonwealth of 
Massachusetts and the statutory scheme of labor protection it 
does provide, because we would never countenance the kind of 
abuses that appear to have been, or allegedly have been, 
perpetrated elsewhere.
    But at the same time, we want to ensure that those foreign 
workers that come to my district, Cape Cod and the islands, not 
only are well protected, but are there to contribute to our 
regional economy and also to ensure that jobs for American 
citizens are not eliminated, because that is what we are 
looking at on the Cape and the islands. I can assure you that 
story after story that come to me and to my office that speaks 
about this issue, that says that without the H-2B visa 
extension, I am going to have to close my business, that this 
is not an issue of displacement of American workers.
    If this occurs, this will develop into the elimination of 
jobs for Americans. It is really that simple.
    You know, on the Cape and the islands, we need, because of 
the spike in the season, somewhere between 5,000 and 6,000 H-2B 
workers. This year, 15. That was the number according to the 
Cape Cod Chamber of Commerce, and a friend of mine, Bill 
Zammer, is here to testify about that.
    And this translates, by the way, into a real high-risk 
issue for us, because our communities are impacted. The tourism 
business in the Commonwealth of Massachusetts generates local 
and State revenues in about almost $1 billion.
    And you are right about protecting workers. We face a 
fiscal crisis in Massachusetts, and this kind of damage to our 
retail economy can mean layoffs for teachers, and firefighters, 
and police officers, and other members of organized labor. So 
that is why we are here fighting for hard.
    I appreciate the great work that you have all done, and I 
appreciate the prediction of my good friend from Illinois.
    Mr. Gutierrez. Will the gentleman yield?
    Mr. Delahunt. I yield, of course.
    Mr. Gutierrez. Thank you.
    Number one, I thank the gentleman for his help, his 
support, and his commitment. And I know what Massachusetts 
represents in terms of the entire delegation, and the gentleman 
specifically.
    And now, I would like to ask a unanimous consent request of 
the----
    I yield back to the----
    Ms. Lofgren. Okay. Are the three of you able to return 
after this one vote?
    Mr. Stupak. I am in a markup; I might have to run back and 
forth, but I will return.
    Mr. Gutierrez. Madam Chairwoman? Madam Chairwoman?
    Ms. Lofgren. Yes?
    Mr. Gutierrez. May I ask for unanimous consent that ``Close 
to Slavery, Guestworker Programs in the United States,'' a 
report by the Southern Poverty Law Center,\1\ be included in 
the record?
---------------------------------------------------------------------------
    \1\ The report by the Southern Poverty Law Center entitled Close to 
Slavery, submitted by Mr. Gutierrez is not reprinted in this hearing 
but is on file at the Subcommittee and can be accessed at 
www.splcenter.org/pdf/static/SPLCguestworker.pdf.
---------------------------------------------------------------------------
    Ms. Lofgren. Of course. Without objection.
    Mr. Gohmert. Madam Chair?
    Ms. Lofgren. Yes?
    Mr. Gohmert. Yes. Mike Conaway has a constituent who had 
offered to come up here and testify. He asked if I would offer 
his testimony in writing for the record----
    Ms. Lofgren. Without objection, that will be included in 
the record.
    Ms. Jackson Lee. Madam Chair, may I just make--I have to 
be--on the floor; I will not be able to return. May I just make 
one or two statements in my----
    Ms. Lofgren. If you could very quickly.
    Ms. Jackson Lee. I will. I will.
    Let me first recognize the Members and thank them very much 
for this thoughtful legislation. I will not be able to ask 
questions, but I do think the telling point is to ensure that 
we are protecting American jobs while we are balancing the 
business interests.
    And just for the record, Madam Chair, I just want to 
indicate that in my district today, ICE raided a Shipley's 
Donut place, and of course took undocumented individuals in, at 
least allegedly so. Picketing is going on in front of my 
Federal building.
    I would just suggest that we have a crisis and we cannot do 
immigration reform through ICE raids of individuals who may or 
may not be undocumented, but may have a Spanish surname. I 
frankly hope that the President and this Congress, with your 
leadership--and you have been a leader--that we can work 
together for what is right: comprehensive immigration reform, 
protecting American jobs, and doing it the right way.
    With that, I yield back.
    Ms. Lofgren. Thank you.
    We have--actually, only 131 members have voted. I wonder, 
Mr. Scott, would you like to say something now and then these 
members won't have to come back?
    Mr. Scott. Well, Madam Chair, I am not a Member of the 
Committee, but I did--I think you had--by unanimous consent you 
entered letters from my governor----
    Ms. Lofgren. Yes.
    Mr. Scott [continuing]. Seafood Council, and other 
businesses pointing to the urgency of action as soon as 
possible, and I thank you for the opportunity to----
    Ms. Lofgren. Without objection.
    Mr. Scott [continuing]. Those into the record.
    Ms. Lofgren. They will be. Without objection, they will be 
added to the record.
    And I think, then, we can excuse this panel and come back 
to the second panel at the conclusion of these votes, which I 
hope will be a lot quicker than the last set. We are in recess 
until after the votes.
    [Recess.]
    Ms. Lofgren. The Subcommittee hearing will resume, at least 
temporarily, until we have our next set of votes. We will now 
hear from our second panel of distinguished witnesses, and I 
would ask that as we transition that our guests take their 
seats. I see they have.
    I am pleased to welcome Daniel Musser, III, President of 
the Grand Hotel, a historic 385-room hotel built in 1887 on 
Michigan's Mackinac Island.
    Mr. Musser represents the third generation of Mussers who 
have owned and operated the Grand Hotel. Active in the hotel 
industry, he was appointed to the Michigan Travel Commission in 
1988 and is a former alderman for the city of Mackinac Island.
    He has a bachelor's degree from Albion College in Albion, 
Michigan. He lives on Mackinac Island during the season, and in 
Petoskey, Michigan, during the remainder of the year with his 
wife and three children.
    Next, I would like to introduce Mary Bauer, director of the 
Immigrant Justice Project at the Southern Poverty Law Center in 
Montgomery, Alabama. She has a bachelor's degree from the 
College of William and Mary, and graduated from the University 
of Virginia School of Law in 1990.
    As an attorney, she has spent her career representing low-
wage immigrant workers in employment and civil rights cases. 
Prior to joining the Southern Poverty Law Center, she was the 
legal director of the Virginia Justice Center for Farm and 
Immigrant Workers and the legal director of the Virginia ACLU.
    Our next witness is William Zammer, who operates four high-
volume restaurants in Cape Cod, Massachusetts: the 
Coonamesset--I may be mispronouncing it--Inn, The Flying Bridge 
restaurant, the Tugboats restaurant, and the Pine Hills Golf 
Course. He also operates the Cape Cod Catering Company.
    Heavily involved in education and workforce issues in the 
region, he sits on the executive board of the Cape Cod Chamber 
of Commerce, the Massachusetts Restaurant Association, and the 
Workforce Investment Board of the Commonwealth of 
Massachusetts. He is also presently on the advisory board of 
directors for Johnson and Wales University, Cape Cod Community 
College, and the Upper Cape Regional Technical High School. He 
has received numerous awards for his generosity to the 
community, and enjoys time with his six grandchildren.
    Our next witness is Ross Eisenbrey, Vice President at the 
Economic Policy Institute, where he focuses on labor and 
employment law. He is an attorney and former commissioner of 
the U.S. Occupational Safety and Health Review Commission.
    Prior to joining the Economic Policy Institute in 2002, he 
worked for many years as a staff attorney in the House of 
Representatives, as legislator director for Representative 
William Ford, and as Committee Council for the U.S. Senate. He 
also served as policy director of the Occupational Safety and 
Health Administration from 1999 until 2001. He has a bachelor's 
degree from Middlebury College, and a law degree from the 
University of Michigan Law School.
    And our final witness is Steven A. Camarota, director of 
research at the Center for Immigration Studies in Washington, 
D.C. He has published articles on a variety of immigration 
issues at the Center for Immigration Studies, and he frequently 
appears on television news shows. He holds a Ph.D. from the 
University of Virginia in public policy analysis, and a 
master's degree in political science from the University of 
Pennsylvania.
    As you have heard from the bells, we have been called for 
another vote on the floor, but I wonder if we might at least 
get Mr. Musser's testimony given, and then we will have to go 
and vote and come back. And I do, once again, apologize for the 
disruptive nature of this voting, but that is the nature of 
Congress.
    So Mr. Musser, if you could give us your oral statement of 
about 5 minutes, and for the record, your full written 
testimony will be made part of the record of this hearing.
    So, Mr. Musser?

        TESTIMONY OF R. DANIEL MUSSER, III, PRESIDENT, 
                          GRAND HOTEL

    Mr. Musser. Thank you, Madam Chair, and Members of the 
Subcommittee. I appreciate your invitation today to testify 
about the critical need for foreign, temporary, seasonal H-2B 
workers for the Grand Hotel and other seasonal businesses 
throughout the U.S.
    My name is Dan Musser. I am the President of the Grand 
Hotel on Mackinaw Island, MI. I am the third generation in my 
family to own and operate this historic, seasonal, 385 summer 
resort.
    We are known nationally and internationally as the world's 
largest summer hotel. We are known for the beauty of our 
location, our dramatic 660-foot front porch, but more 
importantly and most importantly, it is for our friendly and 
unique hospitality.
    Our exceptional service is widely recognized by many 
national rating guides. For example, the April edition of 
National Geographic Traveler selected us as one of 150 
properties in the U.S., Canada, Mexico, and the Caribbean 
region with location-inspired architecture, ambience, and the 
amenities and eco-stewardship, and an ethic of giving back to 
the community.
    The Grand Hotel is the largest employer of U.S. workers on 
Mackinaw Island; for many decades, the Grand Hotel's entire 
staff was U.S. workers. However, increasing opportunities for 
year-round hospitality workers has made it impossible to fill 
all of our positions with ready, willing, and able American 
workers.
    Without the H-2B seasonal and temporary workers, we 
eventually would not be in business. We are only open 6 months 
a year. We are in an isolated location, 300 miles north of 
Detroit. Operating year-round is not an option.
    As Chairman Conyers and also Representative Stupak can tell 
you, there is no good way to get to our island in the winter, 
and very little to do there if you are able to get across the 
frozen lake. We are and always have been committed to staffing 
the Grand Hotel with U.S. workers.
    Each year, we take a number of steps to recruit U.S. 
workers to the Grand Hotel, including running ads in major 
papers in Michigan, the Great Lakes region, advertising in 
seasonal resort areas that dovetail with ours, attending many 
job fairs, and visiting culinary institutions around the 
country. We are able to hire some college students, but 
increased numbers of enrichment opportunities and the extended 
school year of many colleges preclude them from remaining with 
us for the entire season.
    We have tried, also, several innovative programs, including 
a service academy, for which we worked with the State of 
Michigan and the Educational Institute of American Hotel and 
Lodging Association, where we hired unemployed Michigan 
citizens, guaranteed them a job the next summer, provided them 
college-level hospitality courses throughout the summer.
    We found that after helping them find jobs at resorts in 
another part of the country in the winter, they did not return. 
While these programs have not provided us the workforce we 
need, we will continue and do everything in our power to find, 
recruit, and maintain an American labor force.
    About 35 years ago, the Grand Hotel began to look to 
foreign workers to fill these positions that we were finding no 
U.S. citizens were available for. Many of our H-2B workers, for 
example those from Jamaica, hold seasonal hospitality jobs in 
their home country. Some return year after year to the Grand 
Hotel because of the pay and working conditions we offer to all 
of our staff.
    Most of the subsidized housing we provide to all of our 
staff are single rooms. We are proud of the condition of our 
employee housing. We have, this year alone, spent an excess of 
$300,000 in improvements.
    We are one of 70 northern Michigan resorts and hotels that 
utilize temporary, seasonal, foreign workers on the H-2B visa 
for specific jobs. Our workforce during the summer is made of 
approximately 600 employees--250 American citizens, and 300 H-
2B workers. Our American jobs depend on our H-2B workers. It 
would be extremely difficult, if not impossible, for us to 
continue and to operate successfully without these H-2B 
workers; they are the lifeblood of our seasonal business.
    Clearly, our H-2B workers do not wish to immigrate to the 
U.S., or they would not have returned home each year at the end 
of our season. Clearly they feel they are treated well, because 
most of them return to us year after year. Clearly they are not 
a security risk. Clearly they are a critical part of what makes 
the Grand Hotel so successful.
    The potential closure of the Grand Hotel would have a 
devastating impact on Mackinaw Island and northern Michigan, 
and the tourism industry in general. For example, in the past 
15 years we have spent $75 million on capital and general 
repairs that have created jobs for hundreds of Michigan 
workers.
    The Grand Hotel is not so much different from thousands of 
small and seasonal businesses throughout the U.S. who have been 
forced to turn to the H-2B program as a result of a lack of 
available Americans that are willing and able to do these 
temporary seasonal jobs. We need you to act immediately to 
extend the returning worker exemption from the annual cap on H-
2B visas.
    [The prepared statement of Mr. Musser follows:]
              Prepared Statement of R. Daniel Musser, III.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Thank you very much.
    At this point, we are going to recess. Mr. King and I will 
run over to vote; we have a little more than 5 minutes left on 
the clock. And we have another vote right after that, so we 
will be back, I hope, in about 10 to 15 minutes at the maximum.
    And so we are in recess until that time.
    [Recess.]
    Ms. Lofgren. The Committee will come back into order. 
Luckily, those were our last votes of the day, so we will not 
be interrupted again. And before turning to Ms. Bauer, I would 
like to recognize, briefly, Mr. Delahunt because I know he has 
another obligation and wants to say something.
    Mr. Delahunt. Yes. I am going to be very brief, and I am 
not going to hold up the testimony except, obviously, my 
opening statement, which was in the form of a question to our 
colleagues. I think it expresses not just my concern and my 
position, but that of both workers and employers on the Cape 
and the islands.
    Now, I know many across the country see Cape Cod and 
Nantucket and Martha's Vineyard as the home of the affluent. 
Well, let me assure you that is not the case, and that those 
who visit us during the tourist season tend to be affluent, and 
we hope that they continue to come and enjoy the pristine 
beauty of my district and that of Massachusetts.
    I also want to note that Bill Zammer is here. He is a 
friend; he is a small business entrepreneur on the Cape. What 
he says reflects my opinion along with that of the rest of the 
Massachusetts delegation, and the need to have H-2B extension 
authorized.
    And with that, I yield back. I have to Chair another 
Committee in another place, and I am sure this is very 
revealing to some of our witnesses who are not accustomed to 
being here in Washington. But I can assure you, we are working.
    And I thank the gentlelady.
    Ms. Lofgren. Thank you, Mr. Delahunt.
    We will turn now to Ms. Bauer.

              TESTIMONY OF MARY BAUER, DIRECTOR, 
                   IMMIGRANT JUSTICE PROJECT

    Ms. Bauer. Thank you, Madam Chairwoman, and Members of this 
Committee, for inviting me to speak about what we have seen in 
the H-2B program.
    I work for the Southern Poverty Law Center. I have 
personally spoken with thousands of H-2B workers over the 
course of my legal career, which has been the last couple 
decades. The Southern Poverty Law Center is currently 
representing H-2B workers in six class-action lawsuits in a 
variety of States. We also published a report last year about 
the H-2 program entitled ``Close to Slavery,'' which is based 
upon our interviews with thousands of workers.
    What we have seen in this program in the real world is that 
it is highly abusive; workers have few rights, and those rights 
are rarely enforced. The abuses of these programs are too 
common to blame on a few bad apple employers. They are the 
foreseeable outcome of a system that treats foreign workers as 
commodities to be imported without affording them legal 
safeguards.
    It is the very structure of this program, as it exists, 
that lends itself to abuse. I am not saying that the employers 
here or that every employer in the program is bad. Instead, 
what I am saying is that the program is structurally flawed.
    The abuses that workers experience often start long before 
they get to the United States, and continue through and even 
after their employment. When they are recruited to work in 
their home countries, workers are often forced to pay enormous 
sums of money--we have seen up to $20,000--borrowed at very 
high interest rates to obtain the right to be employed at a 
low-wage, short-term job.
    Because most workers are indigents, they have to borrow 
that money from loan sharks in their home countries, and then 
they have to make payments on those loans while they are in the 
United States. Many workers we have talked to are required to 
leave collateral--often the deed to their home--in exchange for 
the chance to obtain an H-2 visa.
    H-2 workers lack the most basic rights that workers in the 
United States have: the right to walk away. H-2 workers can 
work only for the employer who petitioned for them.
    The employer decides if he can come, the employer decides 
how long he can stay, and the employer holds all of the power 
over the most important aspects of the worker's life. If the 
worker finds that the employment situation is not what he 
expected or is less than ideal, he cannot work elsewhere, and 
he likely cannot go home because he is desperately in debt.
    We receive calls from H-2B workers in my office routinely, 
and here is what we see in this program in the real world: we 
see rampant violations of the prevailing wage rates, and 
sometimes, often, even the Federal minimum wage. We see rampant 
violation of the contractual rights of workers.
    Workers are brought in too early and then provided no work 
at all. Because they cannot work elsewhere and they likely have 
this substantial debt, the failure to work can be devastating. 
We have seen squalid housing, often at exorbitant prices.
    The most common complaint we receive is that an employer or 
a recruiter has taken a worker's identity document--their 
passport or other document--so that the worker cannot leave. We 
also have received calls that employers have threatened to call 
immigration and customs enforcement if the worker does not 
somehow comply with the contract.
    Increasingly, we see a problem with subcontractors and 
middlemen who are obtaining certification, although they lack 
jobs in any real sense, and they essentially, then, sell or 
rent the workers to other companies, which exacerbates abuses. 
Under this system, workers lack the ability to combat this 
exploitation.
    The DOL does very few investigations of H-2 employers, and 
workers have very few chances of enforcing those rights on 
their own. The DOL even contends that it lacks the authority to 
enforce the prevailing wage rates, as to H-2B workers.
    None of the significant protections that exist, at least on 
paper, for H-2A workers exist in the context of H-2B workers. 
DOL has never promulgated substantive labor protection for 
these workers.
    There is no requirement for free housing; there is no 
requirement that the housing be inspected; there is no 
requirement that the housing even be decent. When they are 
abused on the job, H-2B workers are not even eligible for 
federally funded legal services.
    So what can be done? In our written comments, we have laid 
out specific suggestions for reforms that could be taken to 
make this program less abusive in practice. And we certainly 
hope that as this Committee discusses expanding this program, 
essentially, by allowing returning workers, that is discusses 
seriously the very compelling need for labor protections in 
this program.
    Thank you.
    [The prepared statement of Ms. Bauer follows:]
                    Prepared Statement of Mary Bauer

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


--------
The report by the Southern Poverty Law Center entitled Close to 
Slavery, submitted by this witness is not reprinted in this hearing but 
is on file at the Subcommittee and can be accessed at 
www.splcenter.org/pdf/static/SPLCguestworker.pdf. See Appendix for 
additional material submitted by this witness.
    Ms. Lofgren. Thank you very much.
    Mr. Zammer, we would be pleased to hear from you.

            TESTIMONY OF WILLIAM ZAMMER, PRESIDENT, 
                   CAPE COD RESTAURANTS, INC.

    Mr. Zammer. Madam Chair, Mr. King, and Members of the 
Subcommittee, my name is William Zammer.
    First of all, I would just like to say that Congressman 
Gutierrez, my heart goes out to you. I absolutely agree with 
many of the statements you made, and I wish I could be of more 
help, but Bill won't let me run for Congress.
    I have the privilege of living and working on Cape Cod in 
Massachusetts, one of the Nation's premier visitor 
destinations. And thank you for the opportunity to testify 
before your Committee today on the importance of the H-2B visa 
program as well as the extension of the H-2R program.
    I would like to take this opportunity to acknowledge and 
thank one of your key Members, my Congressman, Bill Delahunt, 
who has labored long and hard on behalf of his district to 
secure a strong and stable economy. I ask that my full written 
statement be submitted for the record, and be permitted to 
summarize at this time, whatever that means.
    Ms. Lofgren. Without objection.
    [The prepared statement of Mr. Zammer follows:]
                  Prepared Statement of William Zammer
                              introduction
    I am Bill Zammer, owner of Cape Cod Restaurants on Cape Cod, 
Massachusetts for the past twenty years. We operate four high volume 
restaurants employing 100 year round employees and 200 seasonal 
employees, half of whom work under the H-2B visa program. We have 
utilized the H-2B visa for at least eight years, as a response to the 
documented lack of temporary, seasonal workers on Cape Cod. My 
experience is common to most Cape Cod employers and I am here today to 
urge you, better yet beg you, to continue the H-2B/H-2R program as it 
has existed for the past twenty years. While the program may need 
refinement, it is still the best program we have for small businesses 
to fill the needs of seasonal employers in this country.
    On Cape Cod, our cost of living, housing prices and significantly 
older resident population lead to the scarcity of seasonal workers. 
Since colonial settlement, Cape Cod has survived by entrepreneurial 
pursuits. From farming and fishing we transitioned to tourism as a way 
to make a living nearly 100 years ago. At one time Cape Codders would 
take seasonal jobs and survive on unemployment insurance to carry them 
through the winter. This is no longer the case--the high cost of living 
makes it impossible. With virtually full employment on Cape Cod and in 
the Commonwealth of Massachusetts, our year round residents have found 
work in jobs that pay 12-month wages. This works against us when trying 
to fill the peak seasonal need generated by our 4 million visitors each 
year. In the highest point of the season our year round population of 
230,000 swells to nearly 750,000.
    We have a much-studied mismatch between jobs available for the 
highly educated, well-skilled resident of Massachusetts and our 
seasonal needs as a world class tourism destination. As a member of the 
Massachusetts Workforce Investment Board, I've joined in the work to 
improve the mix of jobs for the residents of Massachusetts. But we are 
here to talk about seasonal employment jobs--the types of jobs that H-
2B visa workers fill that are not a match with our more skilled 
residents.
    conditions that have led to an inadequate workforce on cape cod
    We began to see real evidence of a seasonal workforce shortage in 
2000. Our regional planning and regulatory agency, the Cape Cod 
Commission, issued a report researched by The Center for Policy 
Analysis at University of Massachusetts, Dartmouth entitled ``Help 
Wanted! Cape Cod's Seasonal Workforce.'' The conclusion was that the 
hospitality industry still continued to experience peaks and valleys, 
even in the face of aggressive means to build the shoulder seasons. 
What was once a two-month peak visitor cycle has now grown to an active 
season from Easter to Thanksgiving. Known for our beautiful coastline 
and beaches, it is understandable that we are highly appealing in the 
warm weather months. But the cold winter months continue to challenge 
our Cape Cod Chamber & Convention & Visitors' Bureau as a time to 
attract leisure travelers, business meetings or weddings to the Cape. 
Small businesses serving visitors, retirees and second homeowners 
comprise \2/3\ of our economy, generating in excess of $1.3 billion in 
direct spending on Cape Cod. And the bulk of this spending takes place 
in a nine month period--not evenly throughout the year.
    Cape Cod has been experiencing a labor shortage for the peak 
visitor season, when our economy employs an additional 23,800 workers, 
for the past eight years. At a meeting in January, 2008 with the 
Commonwealth of Massachusetts, Division of Employment & Training's 
chief economist, it was confirmed that at least 23,800 additional 
workers are added to our year round employment base of 91,000 for a 
total peak summer employment of 114,800. Other demographers estimate 
even higher counts. H-2B workers have typically made up an estimated 
5,000 of that peak season employment number. Aside from a robust 
tourism economy, our shortages are being increased by population 
shifts. Cape Cod is the oldest county in New England.
    Here are the issues we face as a region that have helped to create 
a shortage. The following demographic information is from Peter 
Francese, Director Demographic Forecasts for the New England Economic 
Partnership:

        1.  Growth in year-round Cape Cod residents (2600 from 2000-06) 
        has virtually ceased.

        2.  More year-round residents are now moving away from Cape Cod 
        than to here.

        3.  Cape Cod has high negative natural increase: 5,000 more 
        deaths than births 2000-06.

        4.  This is a big change from when Cape towns (all but 3) grew 
        over 1% per year.

        5.  Cape Cod is losing working age adults 35-44 and their 
        children PLUS early retirees.

        6.  Nearly 1 in 4 residents are age 65+

        7.  The Cape median age is 45.7 (men: 44 women: 47) one of the 
        highest in the nation.

        8.  The Cape is losing children at a faster rate than elsewhere 
        in Massachusetts.

    Cape Cod's housing prices, which are ironically stable compared to 
off-Cape areas even in today's falling real estate market, have been 
driven higher by the ability of those who earn their livings elsewhere 
to invest in a second home or investment property. This has placed 
housing out of the reach of the average Cape Cod wage earner. And just 
recently our newspapers reported that Cape Cod has the highest 
electricity rates in the continental U.S. These are part of the facts 
behind our population drain.
    The ``graying'' of Cape Cod has been well documented. Frankly, many 
of our retirees choose not to work. However many do and they are 
actively recruited. Unfortunately many are not seeking the type of jobs 
filled by the H-2B workers, which involve physical aspects such as 
lifting heavy trays or spending hours on their feet.
    Our hard work to expand our season beyond just the summer months, 
combined with the changing schedules of the nation's colleges, make 
dependence on college students for many of the jobs impossible. They 
leave at the height of our season.
    While I can only speak to Cape Cod's experience, I understand that 
other parts of the country, where business is derived from cold skiing 
conditions or warm beach weather, are also experiencing shortages in 
the types of positions that H2B workers fill.
        our efforts to recruit and retain an adequate workforce.
    Here on Cape Cod, we do not wring our hands over our labor 
scarcity. We roll up our sleeves and get to work. I am a board member 
of our active Cape & Islands Workforce Investment Board, Vice Chair of 
the Cape Cod Chamber of Commerce and recent chair of the Chamber's 
Workforce Training and Development Committee. Many small employers, 
including myself, have provided safe, decent housing with costs 
typically subsidized. Some offer daily transportation to work from 
urban centers. We have scoured culinary schools for employees. I 
personally have traveled to Florida, Pennsylvania, New Hampshire New 
York & Vermont seeking employees and I know many other employers have 
as well. We have asked the state to help promote job fairs and have 
participated in events held this month on Cape Cod and in neighboring 
counties, targeting areas of higher unemployment. We have worked with 
ministers in urban poverty areas. We continually advertise in 
newspapers, on the internet and with employment agencies in Boston.
    In 2004, I led a contingent of Cape employers along with our 
Congressional representative William Delahunt to investigate joint 
training and employment programs with the U.S. Virgin Islands & U.S. 
Department of Labor Region One. We were not able to generate enthusiasm 
in the Islands for sending employees up. We have worked to develop 
partnerships with opposite-season resorts in Florida and ski resorts. 
Our regional Chamber and local Workforce Investment Board have 
instituted a 55+ employment program, educating business owners on the 
benefits of older workers and how to accommodate their needs. This 
program is being heavily marketed this spring.
    I have worked with local schools (including Cape Cod Community 
College, Johnson & Wales University, Upper Cape Cod Technical High 
School, and Cape Cod Technical High School) to develop training 
curriculum for restaurant and hospitality positions, which will have a 
future payoff but not fill immediate needs. College students are 
utilized, but again, they typically head back to school in early or mid 
August, when our season is at its zenith.
    I have served as President of the Massachusetts Restaurant 
Educational Foundation raising funds to train thousands of 
Massachusetts high school students in Pro-Start. Some High school 
students are hired, but child labor laws restrict youth working in 
certain restaurant positions or at certain parts of the day. They also 
return to school before our peak season concludes.
    In 2005, Hurricane Katrina refugees were housed at Massachusetts 
Military Reservation on Cape Cod and we worked to secure employment for 
these people while in transition. My wife, Linda Zammer, has served as 
President of the Mashpee High School Fund creating and distributing 
scholarships in the hospitality industry. She has volunteered in 
Falmouth public schools working on hospitality programs. I sit on the 
hospitality advisory board for Cape Cod Community College and have 
funded the establishment of the Hospitality Institute at Cape Cod 
Community College with $250,000 in my own direct donations as well as 
solicited additional donors for the program. Many of these programs are 
targeted to putting American workers in year round supervisory 
positions in the industry.
    Through the Cape Cod Chamber of Commerce and in partnership with 
the Massachusetts Restaurant Association, we have hosted annual 
workshops featuring Matthew Lee, a nationally recognized immigration 
lawyer and former INS prosecutor, along with enforcement officials from 
the U.S. Department of Labor Wage and Hour Division and Massachusetts' 
Attorney General's office, to keep local businesses up-to-date on 
compliance issues. Additionally, along with Cape Cod Healthcare, our 
regional health care provider, the Chamber has researched and promoted 
health insurance products (known as S.H.I.P.) for temporary seasonal 
workers which many employers have utilized. We work hard as a community 
to keep our seasonal workers healthy, happy, and productive. They are, 
in fact, the face of our businesses. They are critical to our success, 
and therefore we treat them with dignity.
   effects of an inadequate workforce on my business & the community:
    Without strong peak season business local companies like mine 
cannot sustain year round employees. Only those who can do an adequate 
business from Easter to Thanksgiving will make it through the winter 
months, with revenue to support year round jobs for our year round US 
residents. Many small seasonal businesses struggle to generate enough 
revenue to cover the mortgage, rent or utilities in the winter, let 
alone the wages and benefits of year round employees. Removing a viable 
seasonal workforce source from them will make this struggle even 
greater.
    For my company, we need an adequate number of staff to properly 
host the weddings, meetings and golf outings that comprise our core 
business. Fewer employees mean fewer groups can be served. Just one 
less wedding has a trickle down effect to the hairdresser, the wedding 
cake baker, the photographer, the tuxedo shop, the dressmaker and 
tailor, the florist, the limo company, the printer, the musicians, even 
the news stand selling guests papers. Just one less wedding means a 
decline in the number of charitable events we host at heavily 
discounted rates for charities such as Falmouth Hospital, Boys & Girls 
Club, the Heart Association and scores of other groups doing good work 
in our community. Just one less wedding reduces the amount of cash 
donations. A labor shortage doesn't affect only my business; it has a 
domino effect on the local economy and American jobs.
                                 myths
    Myth: The H2B program is a way for employers to pay workers less 
money.

        <bullet>  I exceed prevailing wage rates that are set by the 
        Federal & state government for my workers.

        <bullet>  My average temporary seasonal worker will earn 
        approximately $25,000 to $30,000 in 9 months. From these wages 
        are paid Social Security Taxes, Federal Income Tax, State 
        income tax, Unemployment insurance, workers' compensation 
        insurance.

        <bullet>  I pay my H-2B visa workers air fare, their visa 
        application ($200 per person). It is expensive for me to use 
        this program due to legal fees, government application fees, 
        visa fees.

        <bullet>  I don't rely on third-party recruiters. We travel to 
        Jamaica ourselves to interview candidates when needed. Workers 
        are also referred by current H-2B employees, who certainly 
        wouldn't recruit their neighbors if they were being mistreated.

        <bullet>  I have purchased and rehabbed housing for 125 workers 
        and subsidize the cost of this housing for them.

        <bullet>  We provide travelers insurance to cover their 
        healthcare costs while in the U.S.
Myth: The workers are mistreated.
        <bullet>  We treat our H-2B workers no differently than our 
        American workers. They are our front-line ambassadors to our 
        customers and their level of job satisfaction is reflected to 
        our customers. When employees are happy, customers are happy.

        <bullet>  My H-2B workers come back because of how we care for 
        them. Recently we paid for a worker to return home mid-season 
        to tend to an ill family member.

        <bullet>  My workers have a good relationship with our country 
        because of their experiences here and with our company.

        <bullet>  My workers are worried about losing their jobs here 
        this year and that they may not find a job in another country. 
        The money they earn supports them and their family at a middle 
        class level in their home country.
Myth: This is an immigration issue:
        <bullet>  This is a jobs issue, especially for tourism 
        destinations dependant upon seasonal characteristics like 
        weather.

        <bullet>  The jobs my H-2B workers fill are only available 6 to 
        9 months. My workers are happy to return home to their families 
        when the work is over.
Myth: These workers take American jobs.

        <bullet>  The residents here are seeking 12-month jobs.

        <bullet>  We advertise all year 'round for local candidates 
        before we fill positions with any H-2B worker.

        <bullet>  We will and do hire any American.
Myth: These workers contribute to wage suppression for American 
        workers.
        <bullet>  The Cape & Islands Workforce Investment Board and the 
        Commonwealth of Massachusetts Workforce Investment Board 
        commissioned a recent study on our wages in certain positions 
        as compared to other parts of our state, and found that Cape 
        Cod is paying higher wages than Boston--a major U.S. 
        Metropolitan Statistical Area--due to the scarcity of labor on 
        Cape Cod. We have to pay more to attract all our workers, 
        Americans as well as H2B workers.

    In my view, the 2007 Southern Poverty Law Center report on foreign 
workers in the US seriously misrepresents worker protection and wage 
protections contained in the H-2B temporary seasonal nonimmigrant 
worker program.

        <bullet>  Good Actor/Bad Actor--The report cites some anecdotal 
        accounts, ironically mostly from Forest Service employees, but 
        does not present any evidence that there is ``chronic'' abuse 
        within the system aside from a few examples. This report 
        ignores that most of the small employers using the H-2B program 
        are good actor employers that follow the rules and are trying 
        their best to comply with immigration laws and hire legal 
        workers.

        <bullet>  Enforce Current Law--Clear violations such as those 
        in the report need to be addressed through existing enforcement 
        authority. Under current law, the Secretary of Homeland 
        Security may impose fines and penalties and US Department of 
        Labor, Wage and Hour, investigates wage abuses for H2B workers 
        as they do for US workers.

        <bullet>  Excessive Regulation Renders Program Worthless--We 
        welcome any new regulation that makes the program more user 
        friendly for small business as well as those that protect both 
        the US and H2-B worker.

        <bullet>  Legal Recourse--While SPLC claims there is no legal 
        recourse for workers, there is actually extensive legal 
        recourse--as exemplified by the court cases in which SPLC were 
        involved. Some of their cases were settled or won, proving that 
        there is some mechanism in place for redress against abuse. In 
        any event, enforcement by DOL of its authority in this area 
        will provide redress for the great majority of issues related 
        to worker protection.

        <bullet>  Rate of Return to Employer--An estimated 80% of H-2B 
        workers willingly returned to work for their previous employer 
        during 2006. This incredibly high rate of return indicates that 
        most workers do not experience chronic abuses, and in fact like 
        using the program. I can't speak to the workers who might be 
        unhappy returning to their farm that the report talks about. I 
        can say that an unhappy worker in the tourism industry directly 
        impacts on business. I keep my workers happy, and they come 
        back year after year.

        <bullet>  Dependent Spouses and Children--Spouses and 
        dependents are permitted to come with H-2 workers under an H-4 
        visa, despite SPLC claims that H-2B workers are forced to be 
        separated from their families while they come to the US to 
        work. Further, the choice to work in the US is voluntary, and 
        presents clear economic advantages. The fact that many of these 
        workers have families in their home countries is often a 
        motivating factor in them returning home after the completion 
        of their seasonal work. Again, this is not an immigration 
        issue.

        <bullet>  Portability--All nonimmigrant worker programs admit 
        workers for very specific job opportunities. H-2B workers are 
        currently able to transfer to work for another employer under 
        the H-2B program so long as the second employer's petition has 
        been approved by the Department of Homeland Security (DHS). 
        This step is important in assuring that the new employer has 
        met the dual test of offering wages and working conditions 
        approved by DOL and has preferentially hired US workers who 
        want the job first. H-2B workers have substantially the same 
        rights as any US worker: if they are unhappy with their current 
        position, they can transfer to another approved H-2B employer, 
        or they can return home.

        <bullet>  Workers' Compensation--US workers and H-2B workers 
        already have the same access to workers' compensation, and this 
        is how it should remain. The SPLC report says that guest 
        workers do not have access to workers' compensation, but 
        virtually every state requires employers to provide workers' 
        compensation for all of their employees, including H-2B 
        temporary non-agricultural workers.

        <bullet>  Reporting and Retention Requirements--Congress should 
        not impose extra burdens on an employer using the H-2B program, 
        such as reporting requirements, retaining paperwork for long 
        periods of time, etc. The program is currently a big success. 
        It provides significant safeguards to ensure that H-2B 
        temporary workers do not displace American workers. The more 
        regulatory hurdles that are placed on the program, the more 
        small US employers will go out of business, and small business 
        is the backbone of our economy.

        <bullet>  Withholding Documents--The SPLC report claims that 
        some employers unlawfully seize H-2B workers' documents. This 
        is already illegal under current law. Current law provides for 
        enforcement against these types of violations. Remember, the 
        report talks about some employers. Should all employers be cast 
        in the same light? I don't do this, my colleagues in 
        Massachusetts don't do this, again, we are looking at some bad 
        actors.

                              conclusion:
    The H-2B program works for the hospitality industry on Cape Cod and 
in this country. The anecdotal information from the Southern Poverty 
Law Center does not apply on Cape Cod. We would be fools to abuse these 
employees who have become the mainstay of our business and our 
communities. We support the need for comprehensive immigration reform, 
but in the process, do not want to destroy the H-2B program which has 
successfully filled the needs of seasonal businesses across the country 
for decades.

    Mr. Zammer. I come before you today as the owner of a group 
of Cape Cod restaurants for the past 20 years. I am Vice 
Chairman of the Massachusetts Restaurant Association, Vice 
Chairman of the Cape Cod Chamber of Commerce, and an active 
member of a number of State and local and workforce development 
boards.
    My story is similar to those of many businesses on Cape 
Cod. It is a story about genuine economic needs in our region, 
about vital jobs, and how the visiting workers help our small 
businesses.
    My message to you is very simple: Please retain the H-2B 
program and extend the H-2R program returning worker exemption. 
They are essential to the needs of the seasonal employers 
across Cape Cod and the country. Fix what needs fixing, but 
please don't discard it.
    If these programs are eliminated, it will force small 
businesses out of business, laying off fulltime American 
workers. American workers will not be able to survive if the 
seasonal businesses aren't able to make their profits 
throughout the summer in order to stay open in the winter, 
which is the case on Cape Cod and other geographically 
challenged areas.
    On Cape Cod, the scarcity of workers is due to the high 
housing prices, and significantly older resident population. We 
simply do not have enough workers without migration of young 
people.
    In mid-summer, when our population triples, there are 
simply not enough people to cook, serve meals, make the beds, 
and drive the buses. To say we are geographically challenged is 
putting it mildly.
    I own a restaurant in Boston, for example, which is 75 
miles from Cape Cod. I don't have any problems in Boston. There 
are people living there, whether it is the college students who 
go to school there or the people living there that may come to 
work, and it is not a problem. But it is also a fulltime job.
    Cape Cod employers need an additional 23,800 workers 
between Easter and Thanksgiving. We hire approximately 5,000 H-
2B workers or H-2R returning workers to fill our needs. It is 
not easy to find 23,000 workers.
    We advertise nationally. We offer paid housing and 
transportation. We host job fairs. We have partnered with 
church leaders in urban poverty areas to attract workers, and 
reached out as far as the U.S. Virgin Islands, St. Croix. 
Delahunt led a delegation there with myself and other leaders 
of the Cape, as well as the leaders of the congressional 
Congress--the congresswoman from there as well as the governor 
of the islands. We couldn't find folks who wanted to move up 
with us.
    On my own accord, I have organized and initiated and 
financed a culinary hospitality training school at the local 
community college, since I happen to believe in--to build a 
workforce for the future. But I don't want to depend on doing 
what we have been doing; I am trying to do something about it.
    I have spent a $250,000 of my own money training workers 
for my industry. I am not looking for pats on the back; I am 
just telling you what I did. I have heard stories about the H-
2B program abuses. Nothing is perfect.
    But we do not pay workers lower wages. In fact, all my 
workers earn better than the government-mandated prevailing 
wage. On average, a seasonal worker in my company will earn 
$25,000 to $30,000 over 9 months. They pay their fair share of 
taxes, Social Security and insurance fees. We have offered them 
health insurance.
    This program does not displace American workers. It keeps 
my American workers working year-round because I carry them 
through the winter, even though I lose money, and keeps small 
business viable. And many employers on the Cape do that, 
particularly the retailers.
    We do not mistreat H-2B workers as was stated. In fact, the 
reason our visiting workers return every year is because they 
love us. Year after year they come back, and we treat them with 
dignity and respect, and they are able to support their 
families on the 9 months of wages they make here and back in 
their own countries. And unlike other countries, the people of 
Jamaica speak highly of America.
    But this is not an immigration issue. It is about seasonal 
jobs and the survival of thousands of small businesses that 
make their living in tourism. Our workers go home at the end of 
the season; they do not want to be here illegally.
    Would you rather live in New England in the winter, or 
would you rather go back to Jamaica for 3 months, January, 
February, March? [Laughter.]
    I mean, think about it. We have dramatically improved their 
standard of living.
    In conclusion, please hear my message. The H-2B and H-2R 
programs work for the hospitality industry on Cape Cod and 
elsewhere in these geographically challenged parts of the 
country. We would be foolish to take advantage of employees, 
both American or visiting workers.
    I belong to many national associations, chambers of 
commerce, that are on your side of the immigration reform. We 
are your friends. Please do not hurt the businesses that are 
the backbone of our Nation, and do not destroy the H-2B, H-2 
job programs that have worked so well across the country for 
decades. We are not taking jobs from American workers.
    Thank you. I will be pleased to answer any questions.
    Ms. Lofgren. Thank you very much, Mr. Zammer.
    Mr. Eisenbrey?

 TESTIMONY OF ROSS EISENBREY, VICE PRESIDENT, ECONOMIC POLICY 
                           INSTITUTE

    Mr. Eisenbrey. Thank you, Madam Chairman. Can you hear me?
    Ms. Lofgren. Yes.
    Mr. Eisenbrey. I would like to begin by acknowledging the 
help of Art Read, who is the general counsel of Friends of 
Farmworkers, in preparing my testimony. He was very helpful in 
helping me understand how this program works in practice, as 
opposed to what, for example, the statute says--and I recommend 
him to you, as someone who has worked on this program for about 
20 years, if you are looking for additional advice.
    I have four main points. The first is that the program 
hurts U.S. workers by driving down wages, and that this is 
especially problematic at a time when the economy is slowing 
rapidly, we are losing large numbers of jobs, and we have 
experienced 7 years of downward pressure on wages that leaves 
the median wage lower than it was in 2000.
    The entire premise of the H-2B program--that local labor 
shortage is defined as an inability to easily find willing 
workers at a locally prevailing wage--that shortages should be 
answered with the importation of foreign workers, who have no 
right to change jobs or bargain for better wages, is harmful 
for U.S. workers, and especially for those without a college 
education. There is no shortage of U.S. workers; 70 percent of 
the U.S. workforce does not have a college education. And 
insofar as there are local shortages, extraordinary efforts 
including higher than normal wages, like Mr. Zammer has said he 
pays, ought to be offered.
    The program, as run by DOL, is a catch-22 for U.S. workers, 
designed to exclude them from job opportunities. It sets the 
prevailing wage too low, and it permits such minimal recruiting 
as to be almost a joke. In particular, denying job 
opportunities to U.S. workers because they do not reply to an 
add that runs for 3 days, 4 to 6 months before the job begins, 
is unfair and makes no sense. That is not real recruitment.
    There are sensible reforms that could be made to the 
program that would make it less harmful. To expand a little 
bit, just so you are perfectly clear, the economy is crashing 
right now. The labor market is crashing.
    Payrolls have been cut by 230,000 people in the last 3 
months; unemployment by the end of this year will be at 6 
percent in all likelihood, and next year it will rise to about 
6.5 percent. Nine million people will be unemployed in addition 
to the millions of people who are already underemployed. Wages, 
as I say, have been stagnant for 7 years; they are declining in 
these occupations that are most used by H-2Bs.
    As my testimony points out, in the ones that are most 
subject to H-2B, wages have fallen, they are behind the economy 
as a whole, and unemployment in those occupations is higher 
than in the economy as a whole. Given that wages have not gone 
up for the median, Congress should be looking for ways to 
improve their wages, not to help hold them down.
    Yet, the effect of the H-2B program is to short-circuit the 
normal labor market mechanism for obtaining higher wages. When 
an employer can't find a worker at $8 an hour, the market 
should compel him to offer more, even if that is the locally 
prevailing wage, the wage that other employers have decided to 
offer. It is obviously not enough, and a greater inducement is 
needed before we resort to workers abroad, which is what the H-
2B permits.
    It is far too easy to establish a labor shortage and resort 
to H-2B. U.S. DOL requires a 10-day job listing with the State 
workforce agency, and a 3-day advertisement--that is it--months 
and months before the job begins. That is a crazy way to 
recruit U.S. workers. The people who need the job are the 
people who are unemployed 3 weeks, a month before the job is 
open.
    So in summary, I have a few recommendations. One is that 
workers must be recruited beyond the local area and beyond the 
local State.
    There should be requirements for listing on Internet sites, 
on the National Job Bank. Much more should be required than is. 
And a U.S. worker who comes to answer a job ad and comes to an 
employer who is looking for H-2B workers should have a right to 
that job up to the point at which--at least at which--an 
enforceable contract has been entered into with a foreign 
worker, and that worker has left.
    Finally, the labor market test really has to include a 
higher than prevailing wage, as determined under our current 
mechanisms. You have heard from Mr. Zammer; he offers a higher 
wage. That is laudable; that is not required by the law now. 
Senator Bernie Sanders' bill, S. 2094, has a requirement for 
the 67th percentile of the OEF. I think that is better.
    [The prepared statement of Mr. Eisenbrey follows:]
                  Prepared Statement of Ross Eisenbrey

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Thank you. Your time is expired. We appreciate 
your testimony.
    And now we will turn to Mr. Camarota.

 TESTIMONY OF STEVEN A. CAMAROTA, DIRECTOR OF RESEARCH, CENTER 
                    FOR IMMIGRATION STUDIES

    Mr. Camarota. First I would like to thank the Subcommittee 
for inviting me to testify on the H-2B visa program.
    Now, seasonal work of the kind done mostly by H-2B workers 
is generally done either by adults with a high school degree or 
less. Sometimes, also, by college students, and sometimes by 
high school students. But these groups have generally not fared 
well in the labor market, indicating that this type of labor is 
not in short supply. If there was, wages, benefits, and 
employment rates should all be increasing fast; but the 
opposite has actually been happening.
    Consider wages. Hourly wages for men with less than a high 
school education grew less than 2 percent, in real terms, in 
the last 7 years. Hourly wages for men who have only a high 
school degree and no additional schooling actually declined in 
the last 7 years.
    The share of adult natives, say 18 to 64, without a high 
school degree, holding a job at any one time has been declining 
in the last 7 years. The share of natives with only a high 
school degree has also declined. The share of teenagers, 15 to 
17, holding a job has also fallen in the last 7 years.
    Declining employment rates and stagnant or declining wages 
are entirely inconsistent with the argument, ``Workers are in 
short supply.'' And these figures are before the downturn began 
in 2007.
    Now, if these type of workers were in short supply, wages, 
benefits, and employment rates should all be increasing fast, 
as employers try desperately to attract and retain the 
relatively few workers available. But this is not what has been 
happening. There is now a huge supply of potential less-
educated workers.
    In 2007, there were more than 22 million native-born 
Americans, 18 to 64, with no education beyond high school, who 
were either unemployed or told the survey that they weren't 
even looking for work; so they don't show up in unemployment. 
There are another 10 million teenagers, 15 to 17, who are 
either unemployed or not in the labor market. There is an 
additional 4 million college students unemployed or not in the 
labor market.
    Of course, not every person without a job wishes to work. 
But the huge pool of potential workers indicates there are 
plenty of people who could do seasonal work if wages, working 
conditions, and recruitment methods were improved.
    It is simply incorrect to say that Americans don't do the 
kinds of work covered by the H-2B visa program. The 
overwhelming majority of maids, housekeepers, construction 
laborers, groundskeepers, landscapers, food service and food 
processing workers in America are U.S.-born. Usually, 
typically, two-thirds to three-fourths are U.S.-born.
    While the data does not support the idea that we are short 
of workers, some employers remain convinced there are no 
Americans for these jobs. Now, part of the reason I have 
already mentioned. Employers have become accustomed to paying 
very low wages, and they structure their businesses 
accordingly, sometimes failing to invest in new labor-saving 
devices and techniques. Some employers even have convinced 
themselves that wages don't matter when recruiting.
    But there are other issues as well, that go beyond simply 
paying more or the failure of employers to adopt the latest 
technology. The increasing reliance on foreign workers, legal 
and illegal, has caused the social network and recruitment 
practices once used to attract native-born workers to atrophy, 
creating the impression on employers that there are no workers.
    One of the primary ways by which people have traditionally 
found jobs, especially lower-skilled seasonal and entry-level 
jobs, is through friends and family. As employers have come to 
rely more and more on immigrant workers for some of these types 
of jobs, it occurs to native-born Americans in some parts of 
the country less and less that this is a job they should apply 
for.
    For Americans in some parts of the country, it is often the 
case that no one they know has ever worked at a particular job 
in what is now an immigrant-heavy occupation. There is also no 
friend or family member to make them aware of the job opening, 
or to put a good word in with the person doing the hiring.
    These facts, coupled with low and stagnant wages, make it 
extremely unlikely that a native-born American would think in 
terms of doing some of these jobs no matter how many ads are 
placed in the local newspaper or listed at the unemployment 
office.
    Now, if there was less immigration coming into the United 
States, there is every reason to believe that over time the old 
social networks would reemerge. Of course, there would be some 
painful transitions for employers. But drawing more less-
educated Americans who are young into the labor force would be 
very good for the country.
    It is as a young person that we learn the values necessary 
to function in the world of work. Research shows that if you 
are only intermittently attached to the labor market as a young 
person, that trend, unfortunately, follows you throughout the 
rest of your life.
    In short, if properly paid, treated, and recruited, there 
is an enormous pool of potential workers from which to replace 
workers currently brought in under the H-2B visa program.
    [The prepared statement of Mr. Camarota follows:]
                Prepared Statement of Steven A. Camarota
                               overview:

<bullet>  There is no evidence of a labor shortage, especially at the 
bottom end of the labor market. If there was, wages, benefits, and 
employment should all be increasing fast, the opposite of what has been 
happening.

<bullet>  Seasonal work is generally done either by adults (18 to 64) 
with a high school degree or less, or by college and high school 
students. These groups have generally not fared well in the labor 
market, indicating this type of labor is not in short supply.

<bullet>  Data shows stagnation or a decline in wages.

  <bullet>  Hourly wages for men with less than a high school education 
grew just 1.9 percent between 2000 and 2007.

  <bullet>  Hourly wages for men with only a high school degree 
actually declined by 0.2 percent between 2000 and 2007.

  <bullet>  The share of employers providing health insurance has also 
declined.

<bullet>  The share of adult natives (18 to 64) without a high school 
degree holding a job fell from 53 to 48 percent between 2000 and 2007. 
For those with only a high school education, it fell from 74 to 71 
percent. The share of teenagers (15 to 17) holding a job feel from 25 
percent to 18 percent.

<bullet>  There is a huge supply of potential less-educated native 
workers:

  <bullet>  22 million adult natives (18 to 64) with a high school 
degree or less are unemployed or not in the labor force.

  <bullet>  10 million teenagers (15 to 17) are unemployed or not in 
the labor force.

  <bullet>  4 million college students are unemployed or not in the 
labor force.

<bullet>  Of course, not every person without a job wishes to work. But 
the huge pool of potential workers indicates there are plenty of people 
who could do seasonal work if wages, working conditions and recruitment 
methods were improved.

<bullet>  There is a good deal of research showing that immigration has 
contributed to the decline in employment and wages for less-educated 
natives.

<bullet>  Possible explanations why employers still feel there are not 
enough workers:

  <bullet>  Employers become accustomed to paying low wages and 
structure their businesses accordingly. Raising wages seems out of the 
question, even convincing themselves that wages actually don't matter 
when recruiting.

  <bullet>  The increasing reliance on foreign workers (legal and 
illegal) has caused the social networks and recruitment practices once 
used to attract native-born Americans to atrophy creating the 
impression there are no workers.

  <bullet>  Immigration lowers the social status of a job, making it 
less attractive.

    As in the past, immigration has sparked an intense debate over the 
costs and benefits admitting such a large number of people. A review of 
all the costs and benefits of immigration would, of course, fill 
volumes. I will devote my testimony only to the less-educated labor 
market and the perceived need for more workers to be allowed into the 
country through the H-2B visa program to fill seasonal jobs. The first 
part of my testimony will show that the available data provides no 
evidence that workers of this kind are in short supply. The second part 
of my testimony will report that a large share of workers who do this 
kind of work are native-born Americans and there is little evidence 
that these are jobs only ones that immigrants do. The third part of my 
testimony will focus on why, despite so much data to the contrary, 
employers sincerely perceive a labor shortage.
    It is very common to hear those who own or operate a business argue 
that there are not enough workers to fill all the positions they have. 
Although I will focus my comments on seasonal employment, the perceived 
need for workers is a common view among businesses that employ computer 
programmers to those that hire mostly workers with very little 
education. Seasonal employers are not alone in feeling there is a 
worker shortage. But is this perception correct?
    Most H-2B visa workers can be found in such jobs as food 
processing, hospitality, construction, landscaping and building and 
maintenance occupations.\1\ In general, non-supervisory workers who do 
these kinds of jobs are overwhelmingly men and women who have either 
only a high school degree and no additional education or they are 
individuals who failed to graduate high school. College and high school 
students also sometimes do this kind of work as well. If these types of 
workers were in short supply workers, wages, benefits, and employment 
should all be increasing fast as employers try desperately to attract 
and retain the relatively few workers available. But, in general these 
types of workers have not fared well in the labor market. Wages have 
stagnated or declined and the share holding a job has fallen. This is 
an indication that the number of workers is at least adequate and there 
may in fact be an oversupply of these kinds of workers.
---------------------------------------------------------------------------
    \1\ Foreign Labor Certification: International Talent Helping Meet 
Employer Demand. Performance Report, March 28, 2005-September 30, 2006. 
US Department of Labor. Employment and Training Administration.
---------------------------------------------------------------------------
                              wage trends
    Consider recent trends in wages. Hourly wages for men with less 
than a high school education grew just 1.9 percent in real terms 
between 2000 and 2007. This is far less than half a percent a year on 
average and not the kind of growth we would expect if such workers were 
scarce. The long-term trend is much worse. Real hourly wages for men 
without a high school education are 22 percent lower today than in 
1979. If we look at male workers with only a high school degree their 
real wages have actually declined 0.2 percent since 2000. Since 1979, 
men with only a high school degree have seen their hourly wages decline 
10 percent.\2\ The share of employers providing health insurance has 
also declined. No doubt there are employers who pay less-educated 
workers much more than they used to, but the overall trend in wages and 
benefits, which has to be the basis of a public policy such as 
immigration, do not support the argument that there is a shortage of 
less-educated workers.
---------------------------------------------------------------------------
    \2\ These figures were provided to me by Jared Bernstein an 
economist at the Economic Policy Institute in Washington DC.
---------------------------------------------------------------------------
                           employment trends
    Employment data look as bad or even worse than wage data. The share 
of adult natives (18 to 64) without a high school degree holding a job 
fell from 53 to 48 percent between 2000 and 2007. For those with only a 
high school education, the share holding a job it fell from 74 to 71 
percent. The share of teenagers (15 to 17) holding a job fell from 25 
percent to 18 percent. Again, this is actually the opposite of the 
trend we would expect if there was a tight labor market. The pool of 
potential less-educated native-born workers is now enormous. There are 
22 million adult natives (18 to 64) with a high school degree or less 
who are unemployed or not in the labor force. In addition, there are 10 
million native-born teenagers (15 to 17) and 4 million college students 
who are unemployed or not in the labor force.\3\
---------------------------------------------------------------------------
    \3\ These figures come from my analysis of the March 2000 and 2007 
Current Population Survey.
---------------------------------------------------------------------------
    Of course, not every person without a job wishes to work. Aggregate 
figures of this kind do not make such a distinction. But given these 
numbers, it would seem clear that if wages and working conditions are 
improved, and if businesses adopted better recruitment methods, they 
could meet their need for workers. The cap on the H2-B visa program is 
currently 65,000, though with the exceptions it is double or triple 
with amount. The millions of adult native-born Americans with 
relatively little education who are not working, along with college and 
high school students, would seem to provide sufficient pool of 
potential workers to fill seasonal jobs.
                        jobs americans don't do?
    There is some difficulty matching the job descriptions of persons 
given H-2B visas with the job categories used by the Census Bureau. 
Nonetheless, it is possible to examine the immigrant share of 
occupations that use H-2B visas.\4\ In this way, we can test the idea 
that immigrants only do jobs that Americans do not want. There should 
be jobs that are mostly or entirely filled by immigrants if this is the 
case. Detailed Census Bureau data collected in 2003-2004 for the kinds 
of jobs for which most H-2B visa are given out shows the following: 
there were 1.2 million native-born persons who were ``maids and 
housekeepers'' and they comprised 62 percent of persons in this job 
category; there were 1.1 million native-born Americans who were 
``grounds maintenance workers,'' and they comprised 71 percent of all 
persons in this occupation; there were 1.3 million native-born 
Americans employed as ``construction laborers'' and they comprised 70 
percent of workers doing this type of job. There were nearly 300,000 
native born Americans in food processing occupations such as ``food 
batch makers,'' ``cooking machine operators'' and ``butchers and other 
meat and poultry workers'' between 69 and 75 percent of workers were 
native-born. The jobs ``food preparation worker'' and ``cook'' employed 
2.5 million native-born Americans and they comprised about three-
fourths of all workers in these jobs. These figures are based on a 
detailed analysis of all 473 jobs as defined by the Census Bureau.\5\
---------------------------------------------------------------------------
    \4\ Most research indicates that some 90 percent of illegal 
immigrants respond to Census Bureau surveys. Thus the foreign-born 
shares reported here included illegal immigrants.
    \5\ These figures are based on a combined sample of the 2003 and 
2004 American Community Survey and can be found in Table D of Dropping 
Out: Immigrant Entry and Native Exit from the Labor Market, 2000-2005 
published by the Center for Immigration Studies.
---------------------------------------------------------------------------
    There are virtually no occupations that majority immigrant, let 
alone jobs that are entirely immigrant. It is simply incorrect to say 
there are jobs Americans do not do, when the overwhelming majority of 
almost any job one can name is done by native-born Americans. This is 
clearly true for the kinds of jobs which H-2B visa holders do.
                   why can't employers find workers?
    While the economic data shows no labor shortage, a significant 
number of employers remain convinced that finding workers in other 
countries is the only way they can secure an adequate labor supply. So 
why does this perception that is so out of line with all the data the 
government collects continue to exist.
    Given the low pay and lack of significant wage growth among less-
educated workers, it seems clear that part of the problem for employers 
looking for workers could be solved by raising pay, benefits and even 
working conditions. Because immigration continually increases the 
supply of workers, some employers have become so accustomed to paying 
low wages, that raising wages seems out of the question, even 
convincing themselves that wages actually don't matter when recruiting. 
They have also structured their businesses to use labor intensive 
methods rather than capital intensive methods. So for example, rather 
than investing in machines and other new technologies that would reduce 
the need for workers, some employers lobby for more foreign workers. 
Put simply, higher pay and increased productivity could solve some of 
recruiting problems of employers. There are other issues as well that 
go beyond simply paying more or adopting the latest technology.
    The increasing reliance on foreign workers (legal and illegal) has 
caused the social networks and recruitment practices that were once 
used to attract native-born Americans to atrophy, creating the 
impression there are no workers. One of the primary means by which 
people have traditionally found jobs, especially lower-skilled, 
seasonal and entry-level jobs, is through friends and family. As 
employers have come to rely more and more on immigrants for types of 
jobs, it occurs to native-born Americans less and less that this is a 
job they should apply for. For an American in some parts of the country 
it is often the case that no one they know works at or has ever done 
what is now an immigrant heavy occupation. There is no one to make them 
aware of a job opening or to put a good word in the with the person 
doing the hiring. If most everyone doing a particular job is immigrant, 
it also tends to lower the social status of the occupation in the eyes 
of native-born Americans, making it even less desirable regardless of 
the pay or working conditions. These facts coupled with the low pay and 
lack of wage growth means many of these jobs are simply not on the 
radar screen of American workers, regardless of how the job is 
advertised by an employer.
    Although I seldom use anecdotes in my research, my own experience 
with seasonal agricultural work may be illustrative. When I did 
seasonal work on a farm one summer in New Jersey as a teenager, I heard 
about the job from a fellow football player who was doing the same 
work. It paid $7.50, which would be roughly $17.00 a hour today, 
adjusted for inflation. This was great money for a high school kid who 
was big enough and strong enough to do that kind of work. But the two 
key points is that I only heard about the job through a friend who was 
doing the job himself and the pay made it desirable. Today many fewer 
high school kids do this type of work. Jobs of this kind pay less and a 
very large share of those who now do this work are foreign. This makes 
it extremely unlikely that a native-born American would even think in 
terms of doing the job, no matter how many ads are placed in the local 
newspaper or listed at the unemployment office.
    This does not mean natives would never do this relatively difficult 
job. Rather it means that looking for workers through the unemployment 
office is not going to yield many good and reliable workers. As 
discussed above, these jobs were generally not filled this way in the 
past. They were often filled through personal relationships and the 
perception that the job was something a worker should consider doing. 
The same is true today, except that the social networks in some parts 
of the country are mostly comprised foreign-born workers because of a 
permissive immigration policy. Employers have learned to navigate the 
bureaucracy so they can get their H-2B workers and the ways they used 
to reach native-born American workers has atrophied. They have come to 
rely on immigrant social networks to find workers, whereas at one time 
employers were in touch with clergymen, youth leaders, teachers and a 
host of others who they used to help them find good seasonal workers. 
The workers recruited in this way would also feel some obligation to do 
a good job because they had been recommended by a friend of the family 
or other respected individuals. Immigration has curtailed recruitment 
practices of this kind. If there was less immigration there is every 
reason to believe that over time these practices would reemerge.
    The recruitment of workers for seasonal work has always been 
characterized by informal processes dominated by personal 
relationships. Employers have grown used to the idea of looking abroad 
for workers and relying on immigrant social networks. This will 
continue to be true until immigration policy is changed and they begin 
to use domestic workers. This will take some effort on their part. It 
will not happen overnight and there will be some painful transitions 
for some employers. But drawing more young native-born Americans and 
those who do not have a lot of education into the labor force would be 
good for the country. It is as a young person that we learn the skills 
necessary to function in the world of work, such as showing up on time, 
and following directions from a boss we may not like. There is a lot of 
sociological evidence indicating that those who are only intermittingly 
attached to the labor market at a young age often exhibit this problem 
through their lives. High levels of immigration, of which the H-2B visa 
program is a small part, is contributing to significantly social 
problems such as low wages at the bottom of the labor market and the 
raise of non-work.
                               conclusion
    The available data does not support the argument that there are not 
enough people to fill seasonal jobs done primarily by less-educated 
workers. The share of less-educated adults, as well as teenagers, 
holding a job has declined significant in recent years. Their wages 
have also stagnated or declined. If such workers were in short supply 
wages and employment rates should all be rising, but they are not.
    The perception of a labor shortage by employers in some parts of 
the country is partly do to the fact that many have become accustomed 
to paying low wages and they structure their businesses accordingly. 
Rather than investing in new technologies that would reduce the need 
for workers, they employ labor intensive means and clamor for more 
foreign workers. The increasing reliance on foreign workers (legal and 
illegal) has caused the social networks and recruitment practices that 
were once used to attract native-born Americans to atrophy, 
contributing to the impression there are no workers. Also as 
occupations have become increasingly immigrant dominated in some cities 
and towns, it tends to lower the job's social status, making it even 
less attractive to natives. If immigration was reduced and programs 
like the H-2B visa program were eliminated, wages would rise, working 
conditions would improve, new labor saving devices would be adopted, 
and better recruitment practices would again emerge. Markets work, we 
just have to allow them to do so. Currently, 22 million native-born 
American adults with no education beyond high school are not working, 
another 10 million teenagers are not working and 4 million college 
students do not work. If properly paid, treated and recruited, there is 
an enormous pool of workers from which to replace the 65,000 seasonal 
workers currently allowed into the country under the H-2B program.

    Ms. Lofgren. Thank you, Mr. Camarota.
    Now is the time when we are having an opportunity to ask 
questions, each of us, and I will begin. Mr. Zammer just heard 
the comments made by Mr. Camarota and Mr. Eisenbrey, and I am 
wondering if you can tell us whether the suggestion to 
structure your business so it is less labor-intensive would 
solve the worker shortage that you face.
    Mr. Zammer. Madam Chairman, let me just state, if 
unemployment goes that high--and you were talking about 6.5 
percent unemployment--we are not going to need as many visiting 
workers because in fact, as we advertise, they will be coming 
in.
    And the second part, Mr. Eisenbrey, you said that the--you 
are assuming that the other employees don't have the 
opportunity to come do the job. The fact is, we are not hiring 
all of our staff; I still have 200 other people to find. So I 
am trying to just fill a portion of the gap to do that.
    In answer to your question, Madam Chairman, the labor-
saving devices that I know if in a restaurant business are--you 
know, we have tried to automate, but you still need people. I 
really don't know--we have got little computers running around, 
and we have done that--there are no robots changing beds that I 
know of.
    But it is really a situation--I don't know what I could do; 
I wish there were other things. We have attempted to do things, 
but I think that if----
    The other point: the 15 to 17-year-olds are--Mr. Eisenbrey 
and I were discussing this prior to--that young person, because 
of the child labor laws today, it is very difficult for hotels 
or restaurants to hire the individual. They can't touch liquor 
glasses, and most of the machinery they can't touch, there are 
numerous restrictions on the hours they are allowed to work. I 
was 12 when I started working. But now days, particularly in 
the Commonwealth of Massachusetts, the child labor laws are 
very strictly enforced----
    Ms. Lofgren. If I may, as a parent I wouldn't allow my 15-
year-old to go off to some strange place for the summer to 
work--but let me ask Ms. Bauer a question.
    The testimony you have given is very important, as well as 
the reports that you have delivered, and I want to ask about 
the enforcement issues. The Department of Labor, I think, has 
really dropped the ball completely, and one of the suggestions 
made is, if we do anything here--and we don't know whether we 
will or not--that if there were reforms made in this program, 
there has to be some other mechanism for enforcement in 
addition to the oversight.
    One of the suggestions is that H-2B visa holders should 
have access to legal aid so that they might enforce their own 
rights. Do you think that is a good idea?
    Ms. Bauer. That is one of the specific suggestions that we 
made, that not only should workers have the ability to enforce 
their own rights because they can't rely on DOL, we think it is 
very important that labor protections include a private right 
of action to enforce that contract and to make it clear that 
workers have a real ability to enforce their rights. The 
situation we have right now is that, you know, workers are 
theoretically entitled to a prevailing wage, but really no 
recourse if that wage is not paid.
    Ms. Lofgren. Let me ask Mr. Musser: One of the things that 
has become apparent in the testimony is that there may be 
abuses, not necessarily by employers, but by labor recruiters 
who go out and make various commitments and are treating H--I 
am not suggesting that has happened in your case, or any of the 
witnesses cases, but I think it has happened, certainly, in 
Mississippi and maybe other parts of the country.
    Do you use labor recruiters? How do you select them? And 
would it relieve your mind to know that there was some 
regulatory system to make sure that the labor recruiters were 
honest and fair?
    Mr. Musser. Well, I think that is a great question, and 
the--yes. I mean, obviously it would. We do not use foreign 
labor recruiters. We think that the $150 we pay per petition 
should be used--that goes to DOL--should be used to enforce all 
types of--any of these grievous things that have happened. I 
mean, you know--but I think it is important to note on this 
whole issue is that, you know, our goal is to have all American 
workers.
    And short of that, what we are talking about here is a very 
small part of it, and they are the returning workers. In our 
case, we had 100 with us last season that had been with us for 
more than 10 years. Now, those people are not security risks.
    They are not the problem in any way. So I hope that we 
don't lose sight of the overall picture here, that this is a 
very special group of people that are not part of all that.
    Ms. Lofgren. My time is expired, so I will turn now to 
other Members. I don't know whether Mr. Conyers wishes to ask 
questions at this point.
    Mr. Conyers. Thank you, Madam Chairman.
    We have got on the H-2B, we have got a Stupak bill, Thelma 
Drake bill, Tim Bishop, anybody else?
    Ms. Lofgren. I don't think on the House side there is any 
other bill.
    Mr. Conyers. So we could have, you know, four or five 
hearings on this, but who is for or against any one of these 
three bills? Yes, sir?
    Mr. Eisenbrey. I am opposed to any of these bills that 
doesn't deal with these structural problems in recruitment that 
allows, in Michigan, as the Detroit Free Press reported, one 
landscape service to hire people at the minimum wage, to bring 
people from overseas at the minimum wage, even though the 
national average wage for landscape workers is--I have it 
here--is $11 an hour. I mean, that is completely unacceptable, 
that instead of recruiting either locally or throughout the 
State at $11 or more--$12, $13, $14 an hour--that that 
landscape company is allowed to bring somebody in at minimum 
wage.
    If the bills don't deal with that, if they don't require 
real recruitment, if they don't provide the right to legal 
services for these workers, then the program shouldn't be 
expanded. People got along until 1997 with 20,000 H-2B visas. 
Suddenly 130,000 is needed or we are in a crisis.
    I don't believe it. I think that----
    Mr. Conyers. Well, what if----
    Mr. Eisenbrey [continuing]. The appetite has grown for this 
program.
    Mr. Conyers. I see. So what if Musser goes out of business 
following your theory?
    Mr. Eisenbrey. I don't believe he will go out of business.
    Mr. Conyers. Okay.
    Mr. Eisenbrey. I believe that he is doing the kind of 
recruiting that I am talking about--you have two panelists who 
are far different from the average person who is using this 
program, or wages wouldn't be declining.
    Ms. Lofgren. We are going to have order in the hearing 
room, please.
    Mr. Conyers. What two people you have mentioned?
    Mr. Eisenbrey. The two witnesses here today have----
    Mr. Conyers. Which ones?
    Mr. Eisenbrey [continuing]. Mr. Musser and Mr. Zammer have 
made extraordinary efforts and paid wages that are higher than 
the prevailing wage.
    Mr. Conyers. Which ones?
    Mr. Eisenbrey. I am sorry. Mr. Musser and Mr. Zammer.
    Mr. Conyers. Okay. Is that right?
    Mr. Musser. Yes, Mr. Chairman. You know, we--but I don't 
agree with your premise that we are not representative of other 
operators around the country. I mean, the Broadmoor in Colorado 
Springs, the Breakers in Palm Beach, there are some other--many 
other resorts that do similar efforts that we do and continue 
to do and will continue to do.
    And so I just fully--I realize there are some problems with 
the system, but again, to get back to my point, and certainly 
we are all for correcting these problems with proper resources 
to the DOL or however it is done. But, you know, we are talking 
about, in our case, these 100 workers that have been with us 
more than 10 years, that obviously if we weren't paying good 
wages, didn't have good housing, wouldn't be coming back, that 
aren't a threat to our national security anyway.
    Mr. Conyers. Are you saying, Mr. Eisenbrey, that both of 
these gentlemen, the two witnesses, they could stay in business 
without us doing anything or creating a bill that adds on these 
important additional increments that you suggest?
    Mr. Eisenbrey. I am saying that if you add these 
increments, they are in no danger of going out of business 
because they claim to be doing these things already.
    Mr. Musser. And we will continue to do them, but they don't 
provide the numbers that we need. Our newest program this year 
was the Gerald R. Ford Job Corps in Grand Rapids; it has 
produced 10 young individuals who seem great, and we are 
hopeful that they make the season, that we might even be able 
to expand that problem. But we need 600 jobs, not 10.
    And our program with Michigan citizens with limited 
physical and mental disabilities has been a wonderful program, 
but, you know, we have five individuals that fit under that 
program. And we are going to keep trying all these things, but 
they do not fill our need, nor do they fill the need of the 
other people in our industries.
    Mr. Conyers. Mr. Zammer? Can you make it, as is suggested 
by the person sitting to your left?
    Mr. Zammer. I think, in all due respect to Mr. Eisenbrey, 
the great economist, my problem is, I have two restaurants 
which are seasonal; the other two are year-round. I bring, when 
these two seasonal restaurants close, I bring my American 
workers back into the other ones to keep them working. This 
kind of a bill--I can't bring people back.
    This year, for example--this instant--I am opening the 
restaurants now. I may have to close them early, I have 
contracted the size of our menus, I am going to have to reduce 
the amount of people I bring in on a daily basis, which is 
going to reduce the amount of money that I earn.
    I am not hurting myself, but it will cause me to look at 
the fact that I do keep a number of American workers working 
year-round. I am going to look at that at the end of the year 
and say, ``I have got 100 people I am trying to keep fed and 
take care of their families.'' That is because I am a nice guy. 
But the fact is, at some point I stop doing that.
    So I understand your confusion--not your confusion; that is 
not the right word. I don't represent these people behind me, 
but I don't think I am the exception by any stretch of the 
imagination. We do not abuse employees----
    I heard this thing in Mississippi. It is heartbreaking. And 
those people ought to be shot. But the fact of the matter is 
that the majority of employers that I know of--in the 
Massachusetts Restaurant Association, the National Restaurant 
Association, the very large hotels--we are not abusing 
employees.
    Mr. Conyers. Could I get a little more time?
    Ms. Lofgren. Without objection.
    Mr. Conyers. Let me just ask you, have you seen Ms. Bauer's 
document? Have you seen the document?
    Mr. Zammer. Yes. And it is an insult to me to have--to use 
that word ``slavery'' to me or my fellow employers.
    Mr. Conyers. Do you think it is inaccurate?
    Mr. Zammer. It may be true; I don't have firsthand 
knowledge of it. But I know the majority of employers I have 
talked to are not abusing employees. It may have happened; I 
don't have firsthand knowledge of it.
    But if I may go back to your point, yes, the Stupak bill, 
which allows the visiting worker to return, is very important. 
The ability to police this should be put in place. We pay a 
fee--to the government for enforcement of the laws they are 
talking about.
    I don't make the laws. I follow them. The Commonwealth of 
Massachusetts, by the way----
    Mr. Conyers. Well, you are helping us make them this 
evening, sir.
    Mr. Zammer. I am sorry?
    Mr. Conyers. You are helping us make the laws. That is what 
we are doing here.
    Mr. Zammer. I hope so.
    Mr. Conyers. Let me ask you, Mr. Camarota, we have been 
looking at some of your statements. Slightly astounding in 
other contexts. But what is your solution? We have got three 
bills before us that I know of, and we say we need more 
protection built in. What do you think about all this? What are 
we to do besides meet here in the evening?
    Mr. Camarota. Yes. The problem I have is, why can't we find 
any evidence of a labor shortage with all the government data 
they collect? They spend all this money looking at wage rates, 
employment rates, share of employees offered benefits, all of 
it at the bottom end of the labor market for things like 
landscapers, nannies, maids, busboys, food processing workers.
    All of it shows very little or zero wage growth. It just 
doesn't support the contention that we have a labor shortage in 
the United States.
    I guess what I would say is, let's let wages rise for a few 
years. Let's let the poorest American workers make some more 
money, and then come back and talk to me about, you know, 
increasing the supply of workers through immigration.
    Mr. Conyers. Ms. Bauer, would you help us out here in this 
discussion?
    Ms. Bauer. Well, I think that it would be fair to say that 
based on our fairly extensive experience, that the efforts 
described by the two employers here today are fairly 
extraordinary. We do not see employers routinely paying more 
than the prevailing wage rate.
    We routinely see workers receiving substantially less than 
the prevailing wage rate, and then having really very little 
recourse when that happens. We are not getting a call once or 
twice a year; we are getting calls every week.
    And it is not just about this terrible situation in 
Mississippi, which is, you know, a case we are involved in. It 
is cases in many, many States. We are currently involved in six 
class-action lawsuits; we could be involved in dozens more, 
frankly, if we had the staff.
    Ms. Lofgren. Could you say what States?
    Ms. Bauer. The cases are filed in Georgia, Tennessee, 
several in Louisiana, Arkansas, and one other State that I----
    Ms. Lofgren. All southern States.
    Ms. Bauer. Our States are the South. We work in the South. 
I do not think the circumstances that we describe are limited 
specifically to situations in the South.
    I mean, we get calls across industries and across our 
region, and it really--they are very similar stories. They are 
people cheated out of wages who have their identity documents 
confiscated, people who have paid enormous sums of money.
    So we are seeing the same kinds of abuses over and over and 
over again across industries, and that says to us that it is a 
product of the structure of this program. And that is what we 
are really calling upon for change.
    Mr. Conyers. Thank you, Madam Chair.
    Ms. Lofgren. Thank you.
    We turn now to our colleague, Mr. Gutierrez.
    Mr. Gutierrez. Yes. I thank all of the panel this--and I 
think you really can't have a conversation about this outside 
of the context of comprehensive immigration reform. And I think 
that, I think, causes--because, you see, Ms. Bauer and Mr. 
Eisenbrey are absolutely correct; we need to make changes.
    We need to make changes in the program where abuses exist. 
And then we have very great, elegant gentlemen that have come 
here today who run fine industries. The problem is that they 
both need to be fixed. They need the workers.
    I hear Mr. Camarota say, ``Well, there is no evidence that 
we need workers.'' A recent report said most Americans want to 
retire by the age of 64. Well, if we actually do that, that 
means in 20 years--no, wait a minute, 19 years--over half of 
our workforce will either be retired or want to be retired. 
Half of our workforce that we have today.
    You know, they passed laws in Arizona--very stringent laws 
against immigrants in Arizona--and the next thing out of the 
government offices in Arizona is, we want a guest worker 
program for Arizona to bring workers in. They passed stringent 
laws in Colorado. What is the very next thing they do in 
Colorado? They go to jail cells, to inmates, and say, ``Can't 
you please come out and fix our crops?''
    What evidence more do we need than that? We have failing 
industries in America, which are failing because they do not 
have. Everybody talks about economics.
    The fact is, when I was born only 4 out of 10 workers in 
the United States of America had a high school diploma. Today, 
9 out of 10 of them have a high school diploma. We are creating 
a better-educated, better-trained workforce which is demanding 
higher wages and has higher expectations than the generation 
before.
    The U.S. Department of Labor tells us, Mr. Camarota, that 
every year we create over 350,000 low-skilled, low-wage jobs. 
But we have 5,000 visas for low-skilled, low-wage workers. 
Look, there is common ground here, because absolutely the 
workers need to be protected, their wages need to be protected, 
their right to organize into unions needs to be protected.
    But I am going to tell you something. You know, what is 
happening today is certainly not--my dad didn't send me when I 
was 15 years old to go work at Golden Nugget, but it was bad. 
It was bad. When they told me I was going to make $75 a week--
this is great. I mean, this is 1969--$75 a week.
    They didn't tell me it was 90 hours a week. You know, they 
didn't tell me that I was going to have to wash the dishes and 
do just about every other job over at the nice Golden Nugget 
restaurant. But you know what? That is all that was afforded to 
me when I was 15 years old, so I went and I did it.
    And I learned a few things about the culinary industry, but 
it wasn't right to put me, that 15-year-old--or any other 15-
year-old--in that kind of situation. So the abuses do continue.
    I go and--you know, I know it is anecdotal information--but 
I go, and I decided that I am going to plant a--I love planting 
trees--and I go back, and I go back to the same landscaping 
company--not company, but where they have all the trees, the 
nursery--and just about everybody that works there, you know, 
Gonzalez, Martinez--the reality--and I go there, and I always 
like it because they treat me so well--treat me so well.
    And they always get the best tree, the healthiest tree, and 
they tell me what--how to plant it and everything, and I just 
go home and I plant it. I was so surprised, because I have seen 
these workers year in and year out, when the last time I 
visited them last summer when I went to go back I said, ``How 
is everything going in the Congress of the United States? Are 
you guys moving on comprehensive immigration reform? Our 
families really need it.''
    I said, ``Well, I am going to help those--.'' They said, 
``No, no. We need it.'' They are so interwoven into the fabric 
of our society that we cannot distinguish between those that 
are here undocumented and documented; except they know it.
    They live in that fear. And their employers many times 
exploit--with all deference to the ones that we have here 
today--exploit that very fear that they have. We need to fix 
this, as I said earlier.
    We have the largest, already, guest worker program the 
United States has ever seen. There are 12 million to 14 million 
of them.
    The Department of Agriculture says, and the Department of 
Labor says over two-thirds of our agricultural workers are 
undocumented. The Federal Government knows it, and they are not 
going to deport them because it would cause a collapse of the 
agricultural industry in the United States of America. And 
there are many industries that would collapse.
    So let's just face it: You have a problem. I suggest--
400,000 visas with worker protection--with worker protection. 
That if you come to the United States that visa is portable to 
other employers so that they can come and do this job.
    And you know something? I want to continue the fine great 
American tradition, that people that come here who work hard, 
who sweat, and who toil, whether they come under a guest worker 
program or any other program, if they are good for our economy, 
if we welcome them here and they are good workers--and I know 
the employers want good workers to stay--why don't we allow 
them the opportunity to stay in America and build the kinds of 
roots?
    It is the very fabric and foundation of our country that we 
are talking about here, in terms of how we debate this issue. 
So I would say--you know, I hear things from the panelists 
today, and I thank the work that you are doing down in the 
South, Ms. Bauer; I thank Mr. Eisenbrey for what he does.
    And I commend Mr. Zammer, because I know employers just 
like you and Mr. Musser who treat their workers very well, who 
indeed have come to my office and with the--I had the CEO of 
Barnes and Noble come to my office from New Jersey because he 
got no match letter for his employee.
    Now, Barnes and Noble's never been on the record as being 
an exploiter of workers, and he says, ``Luis, I don't want to 
have to fire them. Can we find a solution? I have got these 
notes--their Social Security numbers--and I have to take action 
against them.''
    We found a solution for him. But you want to know 
something? There are employers who want to keep their immigrant 
workers; there are also employers that we have to keep in check 
because they will exploit those very vulnerable workers at the 
end of the day.
    So let's have a conversation about how we deal with this. I 
think we need to keep programs so that our industries are 
strong. But I also say to Mr. Zammer and to Mr. Musser, please 
help us. Please help us in the totality of the problem.
    When I go back home to my district, it is not in Michigan; 
you know, it is not in Cape Cod. And I have a constituency of 
people who I want to respect me, and I want to earn and deserve 
their respect. And if I don't speak for those most vulnerable 
among us, I don't think I should return to the Congress of the 
United States.
    So I thank you all for your testimony.
    Mr. Conyers. Madam Chairman?
    Ms. Lofgren. Yes, Mr. Chairman?
    Mr. Conyers. Can I be recognized to continue the discussion 
started by the distinguished gentleman of Illinois?
    Ms. Lofgren. Of course.
    Mr. Conyers. You see, we are dealing with a couple of 
problems here that maybe this panel can help us untangle. We 
have got Musser and I think Zammer talking about an immediate 
problem. We have got the distinguished gentleman from Illinois 
talking about a comprehensive reform problem.
    Now, the Strive Act had a hearing here in the Committee; 
the Strive Act had hearings in the Senate. Me, I want the 
Strive Act, and I want to help the gentlemen that are before 
me. And what is clear is that since the Strive Act has failed 
in both bodies--and I support the Strive Act--and we have got 
an immediate crisis here with the H-2B.
    What has one got to do with the other? I mean, what are 
we--we are not magicians. You have got to get some action, I 
presume, right away. Am I right?
    Mr. Zammer? [Applause.]
    Mr. Zammer. And you know, Mr. Chairman, you graciously 
identify the two of use, but there are also 300 other employers 
here that pay prevailing or better wages--or above prevailing 
wages--that follow the rules, that are, you know, honest, 
honorable business people that are in the risk of losing their 
businesses because of this. We need your help.
    And again, this is help of bringing back these workers that 
have demonstrated they are not a threat in any way to our 
security. You know, they are not--if all of us weren't treating 
them well, paying them good wages, they would not be returning 
for so long.
    Mr. Conyers. Sure. Well, now, I want to take Mr. 
Eisenbrey's recommendation and Ms. Bauer's very effective study 
and build up a bill and get this thing on the road, but I know 
the problems we have with the makeup of the House and the 
Senate. I know what is going to happen to the Strive Act. I 
mean, and I am undiminished in my commitment and faith that we 
can get it through.
    But, I mean, that is not going to go down very well since 
we want to help people in an immediately precarious situation. 
Why--and I will throw in Mr. Camarota and Eisenbrey and Bauer--
let's bring to this Committee the things that we can build into 
the one measure that might be able to get through here. Of 
course, nobody predicts what will happen in the other body, but 
we have got to do what we can do.
    I wish Bart Stupak were here because that is how we move. I 
mean, the legislative process is a matter of us bargaining and 
compromising and getting advice from experts like yourselves to 
guide us in what we do.
    Ms. Bauer. I will respond to that if that is appropriate. 
We have made a list of very specific recommendations about what 
should be done to this program in our view to make it less 
abusive in practice. And, you know, I could certainly go 
through those. I mean, number one--the number one 
recommendation that we made was to have some system where a 
worker is not legally tied to only one employer, because that--
--
    Mr. Zammer. Excuse me, your honor. That is not true. An H-
2B person coming into this country has portability with anyone 
else who has a labor cert under H-2B. That person working for 
me, doesn't like what they are doing, they can walk down the 
street to another person who happens to have an H-2B 
certification. And they all know that.
    Mr. Conyers. Mr. Zammer---- [Applause.]
    Ms. Lofgren. There is portability, but there also needs to 
be the labor action proceeding, so that is----
    Ms. Bauer. I differ with the characterization of this as a 
program which is portable, but putting that aside for a moment, 
the other sort of ongoing theme of the, you know, complaints 
that we get relates to the enormous sums of money that people 
pay in their home countries and the abuses that go on there.
    And what we see in practice is employers who really deny 
any association with that process. And so we have said it is--a 
regulation can't just be some proposal that we, you know, 
regulate people in Mexico. There has to be an employer----
    Ms. Lofgren. Can I interrupt? Because, Mr. Chairman, we put 
together a labor recruitment recruiter reform package as part 
of the Wilberforce Anti-Human Trafficking measure that I think 
is pretty tough. Are you familiar with that?
    Ms. Bauer. I am not familiar with those particular 
provisions.
    Ms. Lofgren. Okay.
    Ms. Bauer. I am familiar with the provisions of the Miller 
bill that had been introduced, the Indentured Servitude 
Abolition Act of 2007, and that certainly--a lot of that is in 
the bill now. That hasn't passed through the Senate. But, you 
know, I think there was general consensus in the human rights 
activist community that that measure went, you know, probably 
would get the job done in terms of curbing abusive practices. I 
thank the Chairman for allowing me to interrupt.
    Mr. Gutierrez. Madam Chairman, may I have a second turn 
then?
    Ms. Lofgren. When the Chairman is through.
    Mr. Gutierrez. I am sorry. I thought he was through.
    Mr. Conyers. No, I am through for now.
    Mr. Gutierrez. Forgive me.
    Mr. Conyers. Oh, that is okay. I am through for now.
    Mr. Gutierrez. I know I am already putting in jeopardy 
being able to come back to this Committee next year in the next 
Congress, that is, if I get reelected. I thought maybe today I 
would still get a chance to speak again.
    Let me just suggest the following, and that is that I thank 
the Chairman and the gentleman from Michigan for his support on 
comprehensive immigration reform. I have been here, not this 
year nor last year, nor 5 years nor 6 years ago, but indeed 12 
years ago, introducing comprehensive immigration reform 
language to fix the kinds of problems.
    And indeed, we have been responsive to what the H-2B 
industry wanted not yesterday, but many years ago, indeed, a 
decade ago. And had people not said, ``We can't do it''--they 
have been telling me for 10 years they can't do it, and we hear 
again this year, ``We can't do it.''
    So the question then becomes, when can we do it? Because 
the crisis that you are confronting is not a new crisis; it is, 
indeed, an old crisis which continues to come and haunt the 
Congress of the United States.
    So all I am saying is the following: Let's get it done, and 
let's get it done right. I am not trying to hold anybody 
hostage. I want to make it absolutely clear to everybody, there 
are millions of people in Houston, in L.A., in Chicago, in 
Detroit, in New York, and across this Nation--million of 
people--who march for comprehensive immigration reform.
    The Congress and the new majority, which I am a Member of, 
the democratic Congress, has a set of principles to guide us--
democratic Congress--set of principles on immigration. And they 
said one of those principles was comprehensive immigration 
reform as defined by unifying families and keeping them 
together, reforming the very program we are discussing here 
today, making sure that the long waits that families suffer, 
making sure that those that are serving in our armed forces 
don't have their husbands and spouses deported while they are 
serving in our Nation, and bringing out----
    I had a--it felt like such a great moment when I watched 
the Kodak Theater and I saw history being made because I saw a 
woman and an African-American, and I said, ``One of those two 
is going to be the nominee of the democratic party, and may 
indeed be the next President of the United States.'' And they 
both stated, unlike any other debate that I have ever heard 
since I arrived in Congress in 1993, ``We are going to have 
comprehensive immigration reform under our Administration that 
brings the undocumented out of the shadows of darkness, allows 
them the pathway to citizenship, we secure our borders.'' I 
want to do all of those things.
    I represent a community of people that marched and made a 
claim, and said, ``I don't believe that the halls of justice in 
Washington, D.C. are empty and bankrupt.'' And they are coming 
here with a check. And they want that check honored.
    They are working hard; they are sweating and they are 
toiling. And they expect this Congress to respond in a manner 
which is filled with justice for their work--hard work--and 
their honest claims to fairness in our immigration system. So 
that is what I am trying to do.
    So when I raise the issue, I raise the issue because if not 
I, no one else will. No one else will, within the debate.
    I started earlier by stating to everybody, and I think 
given the Chairman's words earlier, that I said, ``H-2B? Oh, 
that has the votes here. The Congress is working on that 
mightily.'' I know that everywhere I go, whether it is senators 
or congressmen, or different people, and they have told me, 
``Luis, we can only do a little bit; maybe just a little bit 
for the undocumented. We can only bring just a little; just a 
little justice for those veterans that are out there fighting. 
We can only do a little bit for the 5 million--5 million--
American citizen children whose parents are under threat of 
deportation.''
    Fifteen thousand, we read reports of last month, babies are 
taken away from its very mother. Babies--American citizen's 
child, baby taken away from its mother, and only think about 
what the trauma. That trauma is occurring day in and day out.
    So while I feel sympathetic and understand the plight of H-
2B, I always look at it in the context of a greater context, of 
our immigrant community. I may be chastised for looking at it 
that way; people may be critical of me for looking at it that 
way, but that is the way I look at it. And I think it is a very 
fair and appropriate avenue to take.
    We should build alliances that allow you--as I say to you 
today, I understand your problem. That is, the industry's 
problem. And I expect to share with you my issues so that we 
can build the kind of coalition which will, in the end, allow 
us to have the political power, strength, currency to bring 
justice for all immigrants.
    I don't think any of the panelists want anything less. I 
don't think anybody in America wants anything less. So that is 
what I am trying to arrive at.
    So I am not Johnny Come Lately to the issue. I remember 
when I introduced the Strive Act, there were people who came to 
me in positions of authority in this Congress, and said to me, 
``Luis, that doesn't go far enough.''
    Now they are telling me we can't even reach that. So I am 
sorry if I feel like I am in a quandary in my democratic party, 
when in the beginning they said it didn't go far enough and 
they were critical of it, and today they say it goes too far. 
Those are the quandaries that we find ourselves here in the 
Congress; that is politics.
    But I will tell you, I want to support it, but I cannot 
support the H-2B program or its continuation unless it has 
changes in its labor standards and labor protections, and 
unless we do something for the most vulnerable of immigrants, 
and that is the undocumented, the soldiers, the children who 
are losing their parents. That is my only point, and forgive me 
for raising it if it seems unduly welcome or somehow not 
specific to the case that we are discussing here today.
    Ms. Lofgren. The gentleman's time has expired. The Chairman 
will have the last word----
    Mr. Conyers. Will the gentlelady yield?
    You are talking and sitting next to a Member that supports 
the Strive Act and is a co-sponsor of the Strive Act. The 
people that are here today are trying to get one part of the 
bill ready, dealing with this H-2B problem, and all I see is, 
how do we accommodate both?
    I mean, I am for working the Strive Act. I authorized the 
Chairperson to hold hearings on the Strive Act. So I have 
always admired and supported the work that you have done.
    Mr. Gutierrez. Thank you.
    Mr. Conyers. Your experiences are unique in this area that 
cannot be compared with anybody. So we will close down this 
hearing saying, ``Sorry, all you folks with H-2B problems.''
    And we have gotten some good recommendations how to 
probably make this part of immigration law very much improved, 
but we are saying, ``I hope you can hang on until next year 
after we get a new Administration, because I think we can go 
back up the Hill.'' You and I notwithstanding, our strongest 
efforts were able to save the Strive Act in the other body.
    That doesn't mean we have given up on it. It took me 15 
years to pass the Martin Luther King Holiday bill, Congress 
after Congress after Congress. I don't think we need to wait 15 
years for this problem, but what I am saying is, I don't--and I 
would like to get some comments from the five of you before we 
close down--I don't think we need to wait until we figure out 
to pass the Strive Act in both bodies and get it before a 
President whose hostility to intelligent immigration reform is 
well-known.
    So the question is, what do we do tonight? We have had a 
great hearing, the witnesses have been complimented, everything 
is great, but what?
    The fact still remains that the intransigent other body in 
the Congress and the legislative process doesn't have a Luis 
Gutierrez over there. And what do we do now?
    Ms. Bauer?
    Ms. Bauer. Our office certainly supports comprehensive 
immigration reform. We think that is, I mean--Mr. Gutierrez, 
you know, I am moved by all of what you said. But when it comes 
to this program, we feel very strongly that this should not be 
a model for either immigration reform, and that it should not 
be expanded as it currently exists.
    We hear the employers sitting here saying that there is a 
crisis, but the workers who call our office every week, who 
feel like they can't leave an employer because the employer has 
taken their passport, and they are being held effectively 
hostage--for them, that is a crisis, too. And so I urge you to 
look at that. They are not here with us today----
    Ms. Lofgren. You are speaking for them.
    Ms. Bauer. I am doing my best. But we get calls each and 
every week from workers who perceive their own sort of crisis.
    Mr. Conyers. You are telling me what not to do. What do we 
do?
    Ms. Bauer. I wouldn't extend this program. I mean, if you 
are asking me what I would do, I would not extend this program.
    Mr. Conyers. The question isn't what we shouldn't do. The 
question is, what is it that we do? I mean, we are holding 
hearings not to agree on what not to do.
    If you don't like this, what do you suggest we do tonight? 
Tomorrow is Thursday, April 17. So what do we do? We wake up in 
the morning and we have had a great, candid discussion. Now 
what?
    Ms. Bauer. Well, in answer to that question, I would pass 
significant labor protections for this program, call for real 
enforcement, and see if this program can exist in a way that is 
not abusive when it really is subject to serious inquiry. But I 
think it is not sufficient to have employers who come and say, 
``This is a great program; people are really happy.''
    That is not really a serious inquiry about whether, in 
fact, the program, in practice, is really working well. I think 
that any kind of inquiry in terms of talking to workers in the 
field would lead to the conclusion that it is not working well.
    Mr. Zammer. Mr. Conyers, I agree with Mr. Gutierrez. 
Something needs to be done--you are out there sending--and I am 
going to be very blunt--you are out there sending stimulus 
checks out for the economy. I have got employers behind me 
about to go bankrupt.
    They are not going to make it--you are hurting the same 
people we all want to help. By the way, we are the folks, in my 
industry, we are probably hiring the folks you are talking 
about.
    And I know the National Restaurant Association--I can speak 
a bit for them--are really working to help you out any way we 
can. We want enforcement. I don't want to have--if I saw one of 
my neighbors doing something wrong--businesses--I want to stop 
them. I am not going to let it happen.
    But I think, to answer your question, Congressman Conyers, 
we need relief now, the H-2R passed. Let us go clear--this is 
an election year; there is nobody going to (INAUDIBLE) 
immigration.
    No one is going to touch anything between now and the end 
of the Presidential election. Give us the ability now to just 
pass--get another year under our belts. We are not going to do 
anything to hurt anyone.
    Ms. Bauer, they have abuses. I could go to the department 
of labor in any State and find abuses. I mean, every State has 
abuses, because there are some bad employers out there. But I 
don't think you should blame this on just H-2B or H-2R 
employers.
    So my response is, please pass that bill. Give us the year, 
Mr. Gutierrez. We will work with you in any way we possibly can 
to help you--I happen to belong to (INAUDIBLE). We are working 
for you. You are hurting your friends right now.
    Mr. Conyers. Yes, sir, I will. Let me just ask you this, 
though. Suppose we take Bauer and Eisenbrey's recommendations, 
we really get this H-2B thing together, now, will you help us 
pass the Strive Act immediately thereafter? The comprehensive 
reform that Chairman Gutierrez has talked about?
    Mr. Musser. Yes.
    Mr. Conyers. Now, this isn't the, ``I promise you, Honey, 
but tomorrow I may not know your name''---- [Laughter.]
    Well, we have been around here a little while, here. How do 
we know--how can he go home confidently and say, ``Well, this 
is it. I have got tens of thousands of people working with me 
on comprehensive reform. They promised to get this H-2B 
through, and they will be with us forever.''
    You know what would happen to him in Chicago if he went 
back and reported that everything is okay and then----
    Ms. Lofgren. Would the gentleman yield? Because I think 
what--and I am not taking a position on what we should do, but 
I would note that what is being suggested is a 1-year 
extension, so this group of individuals is going to be right 
back here should the Congress do that--and we don't know if 
they will--next year with a problem that is persistent.
    And I thank the gentleman for yielding.
    Mr. Gutierrez. I thank the Chairman for yielding.
    Number one, I think it would be, well, just not factual to 
say that I haven't been working with the H-2B industry on 
resolving this issue. That is just unfactual. I have been 
speaking for Mr. Stupak now for 2 months, and we have been in 
intensive negotiations during those 2 months.
    In every legislative process, there is a give and take to 
those legislation processes. There is something that Mr. Stupak 
wants, there is an industry that he represents that is very 
well represented by Mr. Bishop and others also. And so we are 
talking. And to say otherwise, I just don't think it is 
factual.
    Now, there are things we want; things that we are demanding 
in exchange for our support. That is the legislative process 
that we have here. I understand that we have many friends and 
allies out in this room who aren't here today petitioning.
    And I--as I shared with Mr. Stupak, I said, ``You know, I 
wish we would have all organized together the first round. We 
might have been more successful in the Senate.''
    The fact is that, from a historical point of view, we have 
a President that wants comprehensive immigration reform, but 
has absolutely no political capital to bring it about. We have 
a Congress where 85 percent of the Democrats want comprehensive 
immigration reform, and we can't build a partnership with 20 
percent of the minority to get it done. Those are just 
realities that we are dealing with.
    So do I know we need to build a bipartisan effort to get 
comprehensive immigration reform? Well, I would not be faithful 
to my cause if I did not realize how it is to get 218 votes. 
Absolutely. We need to build a bipartisan approach.
    My only point, Mr. Chairman, and I will end with this, is--
and I thank the Chairman for his support, for his unwavering 
support on the issue of comprehensive immigration reform and 
the specific Strive Act bill, which the last Congress, Nancy 
Pelosi was--speaker. You know, we have grown. When I got here, 
there weren't many people for comprehensive anything when it 
came to immigrants. We are growing. We are getting closer 
there; so I understand we are getting closer there.
    My only point is, I think we can do better. I think we can 
do better. And I know that I would be remiss if I didn't try to 
do better than simply dealing with this, because I really 
believe that the Congress of the United States is willing to do 
more than H-2B. I believe that.
    If I don't test those waters, if I don't test that market, 
then I don't believe I am fulfilling my responsibility in terms 
of what I believe, and where it is. I believe the democratic 
party and the democratic caucus of the Congress of the United 
States can garner votes that will both give you a sense of, you 
know, your 1-year, your 2-year extension, but at the same time 
respond to a greater community of people that is out there. 
That is just my belief.
    I also believe, as I said at the very beginning, the H-2B--
how would I say?--interests in the Congress of the United 
States are very well taken care of. They have strong, forceful, 
energetic, well-organized and well-financed advocates for it. I 
am just trying to be an advocate for those that aren't as well 
organized, and not as well--and try to build a coalition with 
you.
    So I thank you all, and I thank the Chairman of the 
Subcommittee and Chairman Conyers for allowing me----
    Mr. Conyers. Mr. Goodlatte has arrived.
    Ms. Lofgren. And we would turn to him----
    Mr. Conyers. Yes.
    Ms. Lofgren [continuing]. For his 5 minutes of question.
    Mr. Goodlatte. Well, thank you, Madam Chairman. I very much 
appreciate your holding this hearing, and I very much 
appreciate the comments of the Chairman of the full Committee, 
Mr. Conyers, as well.
    Chairman Lofgren will confirm that I have been advocating 
for a long time that while comprehensive immigration reform is 
an important goal, it is encountered very serious difficulties. 
The stumble that it took in the United States Senate was a 
major stumble. The Senate received more communications from 
people opposed to that legislation than any other bill in the 
history of the United States Senate, and that is a pretty 
dramatic thing.
    So there is a long pathway that I think has to go, and I am 
not sure a change of Administration--this Administration was 
advocating for that legislation. I am not sure that simply that 
will cover it. I have very strong concern about the amnesty 
provisions that were in that bill; a lot of other people do as 
well.
    I definitely think there are a lot of things that need to 
be done in immigration reform, and I have advocated that we can 
accomplish a lot of things, certainly not limited to H-2B 
workers, but a lot of things--if we will take them up in 
pieces. And that includes not only this, but what the fate of 
people who are illegally in the country is, and the issue of 
border security and interior enforcement.
    All of those things do not have to be rolled into one large 
bill. There is the opportunity to address many pieces of them, 
and I think there would be bipartisan support for addressing 
many pieces of them.
    There is certainly strong bipartisan support for addressing 
the problem with H-2B workers. We have recognized that for a 
long time, due to the fact that we had a provision--the H-2R 
workers who had previously been here and wanted to return to 
the same employer--and I think it was unfortunate that that 
expired in December, and we need to get that back on track.
    So however we do that, I think it is well worth 
undertaking. And I also want to say that employers who take the 
time to comply with the rules of the legal H-2B program must 
compete against other employers who blatantly circumvent U.S. 
law by hiring those who are not legally---- [Applause.]
    And it is not right for Congress to abandon the employers 
who play by the rules. Unfortunately, that is exactly what 
Congress did when it refused to extend the exemption for 
returning H-2B workers this past year.
    So I support efforts to ensure that employers who have 
relied on H-2B workers in the past continue to have access to 
willing returning workers in the future, so that they are no 
worse off in the future. Otherwise, we are placing legitimate 
employers in the very tough position of being forced to find a 
way to compete legally with other companies who take the cheap 
and illegal way out. I believe we must rigorously enforce our 
current immigration laws against lawbreakers while protecting 
those who play by the rules.
    So in that regard, if I might, Madam Chairman, I would like 
to ask a couple of questions.
    Ms. Lofgren. Yes.
    Mr. Goodlatte. To Ms. Bauer, in your testimony--and I am 
aware of your booklet as well--you mentioned that H-2B workers 
cannot switch employers if one employer is abusive. Can they 
switch employers between authorized work periods?
    Ms. Bauer. I am not sure I understand your question.
    Mr. Goodlatte. Well, if they come into the United States 
for a period of time and then they come back again next time, 
if they qualify for an H-2B visa with another employer, they 
can do that, can they not?
    Ms. Bauer. They can come back and work for another 
employer, yes----
    Mr. Goodlatte. Correct.
    Ms. Bauer [continuing]. If they locate an employer--if they 
are able to locate an employer and secure that employment 
arrangement.
    Mr. Goodlatte. Sure. Well, in the current environment, it 
doesn't seem that that would be too difficult if the visas were 
available.
    Is there a high rate of return to the same employers?
    Ms. Bauer. Well, I think it is interesting what data the 
Department of Labor is keeping. I mean, we have some data from 
the, you know, period when the H-2R program was--when the H-2R 
workers were coming as H-2Rs, but there is very little data, 
frankly, that the Department of Labor is keeping in general 
about this.
    So we certainly know that there are workers who are 
returning. What I think----
    Mr. Goodlatte. In fact, the genesis of this hearing is that 
there are workers who want to return but cannot, because the 
program that allowed them to be grandfathered in has expired as 
of December. Is that not right?
    Ms. Bauer. That is correct.
    Mr. Goodlatte. I think the point I want to make here is, 
why would foreign workers return to employers who abuse or 
mistreat them if they have the opportunity to switch to another 
employer with similar labor needs? [Applause.]
    Madam Chairman, I would say to those in the audience, I 
appreciate the response, but it is not appropriate.
    Ms. Lofgren. The audience has been cautioned in the past to 
not engage in displays.
    Mr. Goodlatte. Thank you, Madam Chairman.
    The other question that I have, and I would direct it to 
Mr. Zammer, it sounds like the biggest contributors to the 
problem that Ms. Bauer has mentioned in her testimony are the 
opportunistic labor recruiters in foreign countries who extract 
money and collateral in exchange for awarding H-2B work. Would 
you say that is correct?
    Mr. Zammer. I believe there are some brokers out there who 
probably are doing something like that. I don't deal with them; 
I know Dan doesn't, and I know most of the folks on Cape Cod 
don't.
    It is a ridiculous expense, because they are charging the 
employer or the employee, and we have all done away with it 
because with the returning workers, we don't need a broker 
because they simply come back to you. And they are referring 
their friends back. Those folks are actually going out of 
business.
    Mr. Goodlatte. Well, I wonder--and this is directed to 
those of you who are working with this--I wonder if we might 
address that somehow by requiring more transparency in the 
foreign recruiting process, or asking U.S. employers to be more 
directly involved in the process. I think that would----
    Mr. Zammer. It should be employee to employer.
    Mr. Goodlatte. I think that would address some of the 
concerns that Ms. Bauer has had, because that disconnect, I 
think, creates some circumstances where there is not that same 
need to treat employees in such a way that they want to come 
back next year. I think there are plenty of employees who are 
treated well by their employers and who do want to come back; 
they are well represented here today. And that is my vision of 
how the H-2B worker program should work.
    But if we were to, I think, create a greater connection 
there between the employer and the employee, we would be 
starting to weed out employers who didn't treat them well and 
who today can take advantage of a recruitment process where 
they don't have to have their reputation on the line because 
they are not the ones directly recruiting the employees.
    I know Mr. Eisenbrey had a comment about that.
    Mr. Eisenbrey. There is so much concern here about the 
employers who have workers, they have had them in the past, 
they want them to return. I just don't understand, at the most 
basic level, why we need additional visas then. If that is the 
crisis that people want to address, why do we need a program 
that has built an expansion?
    The Stupak bill would lead to, you know, pretty quickly, a 
couple of hundred thousand visas. We have never had that many 
before. This is a program where a few years back we only had 
20,000 visas.
    So, I mean, if there is a crisis--and I don't believe that 
there is--but if there is a crisis for these employers, why is 
any solution being proposed that would expand this program 
beyond the employers who have returning people now?
    Mr. Goodlatte. I thank you for that comment, because I 
share that concern. We need to make sure that we are getting 
the workers that we need, and we are getting the return workers 
that we need, but we also need to make sure that we are not 
doing something that will put the United States citizens in a 
situation where they are competing with a growing workforce--
particularly right now, where unemployment rates are rising--so 
that we have a rapidly expanding number.
    I, quite frankly, believe that these things should be much 
more tailored to receding economic conditions; there should be 
a more close monitoring of how many workers we need, and maybe 
even have a way to review that on a year-to-year basis and 
relate it to actual need, rather than an arbitrarily expanding 
program. So, I am not a co-sponsor of that particular piece of 
legislation, but I am a strong advocate for fixing the problems 
we have with H-2Bs, including making sure that people who have 
had good, reliable workers in the past can get them back again.
    Madam Chairman, I know I have used more time than----
    Ms. Lofgren. No.
    Mr. Goodlatte [continuing]. Is ordinarily allowed, and I 
thank you very much for that.
    Ms. Lofgren. That is fine.
    I would just note that Mr. Goodlatte and I are, to my 
knowledge, the only former immigration lawyers currently 
serving in the House of Representatives, so we do get down in 
the weeds on some of the details of these laws.
    I think at this point we have had a very good hearing. I 
would just note that although we don't know what our next step 
is, you know, there is a parable about describing the elephant 
while blindfolded, and some people think it is all ears, and 
some people think it is all tail.
    And I think every witness here gave us their best 
information from where they sit, and I certainly--Ms. Bauer, 
you are hearing people that have been abused. And I don't doubt 
that that is happening. Mr. Zammer is not abusing his 
employees, so he feels, you know, he is seeing a different 
thing, just the same as Mr. Musser and other employers.
    I am just mindful that to the extent there are abuses going 
on--and clearly there are some parts of the country and some 
industries where that is happening. If we don't do anything--
there are 66,000 visas a year, and if there are unscrupulous 
employers that are proceeding, I think we have an obligation to 
do some kind of reform here. That is my personal view, and I am 
hopeful that we can come to some consensus so that we can make 
progress not only in this area, but in a whole variety of areas 
where the immigration law really doesn't make a lot of sense.
    Mr. Gutierrez mentioned the situation of soldiers' 
families; it is just outrageous that, you know, if you are an 
American citizen and you apply for your spouse, who was born in 
another country, and then you get sent to Iraq and you get 
killed, your widow is deportable. Now, that is not what we want 
in this country.
    So I think we can make some progress if we work together in 
a collaborative spirit, and I really do appreciate your being 
here and being so patient. A lot of people don't realize that 
the witnesses who come here are volunteers, helping us to 
become better informed so that we can do a better job building 
the laws and making the changes that are necessary. So, your 
service here today is enormously important, and we appreciate 
it very much.
    I would like to thank you all, and without objection note 
that Members have 5 legislative days to submit additional 
written questions for you. Now, if we get additional questions 
we will forward them to you, and we ask that you respond 
promptly if you are able so that we can make your answers part 
of the written record. And without objection, the record will 
remain open for 5 legislative days for the submission of any 
other additional material.
    And again, thank you very, very much. And this hearing is 
adjourned.
    [Whereupon, at 6:45 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 Prepared Statement of the Honorable Zoe Lofgren, a Representative in 
Congress from the State of California, and Chairwoman, Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and International 
                                  Law
    Welcome everyone to our first in a new series of hearings on issues 
related to immigration. These hearings are being held, by this 
committee in conjunction with other House committees, to examine a 
number of immigration-related issues that require our attention, as 
well as to clear up certain misconceptions.
    There are a number of misconceptions being promoted in the halls of 
Congress and in the press. Some have stated that the Congress has done 
nothing to secure our borders. Yet nothing could be further from the 
truth.
    Last year alone this Congress appropriated $3 billion--that's 
billion with a b--in additional emergency funding for border security, 
more than has ever been appropriated for such purposes. This Congress 
also passed legislation adding:

        <bullet>  370 additional miles of border fencing;

        <bullet>  3,000 more Border Patrol Agents;

        <bullet>  29 more ICE Fugitive Operations Teams;

        <bullet>  4,500 additional detention beds;

        <bullet>  new criminal provisions for alien smuggling and 
        trafficking;

        <bullet>  funding increases to strengthen programs to check 
        employment eligibility, track foreign visitors, and identify 
        incarcerated non-citizens;

        <bullet>  as well as numerous other measures to secure our 
        border.

    This Congress has done more to secure our border than any of its 
predecessors. As the Department of Homeland Security itself admits, we 
have demanded more progress on the border than the agency can actually 
keep up with.
    I bring this up not simply to take stock of what we've 
accomplished, but to reflect on the fact that this Congress has acted 
quite a bit on border security and interior immigration enforcement, 
but has not yet acted much in the area of addressing immigration policy 
fixes.
    For those who seek an ``enforcement-first'' policy on immigration, 
let there be no doubt that this Congress has not shied away from many 
proposals to significantly increase border security and immigration 
enforcement, in many cases stretching the capacity of the Department of 
Homeland Security to actually implement what we have legislated.
    As this new series of hearings will demonstrate, there are still 
many pressing immigration issues beyond ``enforcement-only'' that 
require our attention.
    Today, we focus on one of those issues--the H-2B non-agricultural 
temporary worker program. The program is used by certain industries to 
secure workers for seasonal or other temporary needs, and it is 
primarily used in the landscaping, construction, forestry, tourism, 
hotel, and fishing industries.
    The program is capped at 66,000 workers per year. But over the last 
several years, a ``returning worker exemption'' in the law allowed 
returning H-2B workers to come to the U.S. outside the cap, so long as 
they had counted against the cap in one of the preceding 3 years. At 
the program's height, this exemption basically doubled the size of the 
program--allowing some 120,000 H-2B workers to temporarily work in the 
U.S.
    This exemption expired at the end of FY 2007, again capping the H-
2B program at 66,000. Since then, most of us can attest to the outcry 
we have heard from businesses from all over the country. Every Member 
in this room can speak to the streams of H-2B employers that have 
coursed through these halls over the last few months on behalf of the 
returning worker exemption.
    Today, we will hear from Members of Congress and H-2B employers 
about the resulting lack of H-2B workers and the effect this has had on 
certain industries. We will hear about the harm to businesses that rely 
on H-2B workers, as well as the harm to U.S. workers who rely on the 
viability and robustness of those businesses. According to them, 
reauthorizing the returning worker exemption is essential.
    We will also hear how a lack of protections in the H-2B program has 
allowed some businesses to exploit and abuse H-2B workers. Members, 
human rights advocates, and labor advocates will tell us that a lack of 
enforcement and insufficient protections in the law for H-2B workers 
have permitted unscrupulous employers and labor recruiters to abuse the 
program.
    Due to such concerns, they believe that any reauthorization of the 
returning worker exemption should be accompanied by new safeguards to 
ensure that H-2B workers are protected from exploitation and that such 
exploitation does not undermine the working conditions of U.S. workers.
    Due to time limitations, we only have time to hear from nine 
witnesses today at our hearing, and I look forward to hearing from 
them. However, there are others who have been important voices in the 
H-2B issue and without objection their statements will be placed in the 
record.

                                <F-dash>

Prepared Statement of the Honorable John Conyers, Jr., a Representative 
in Congress from the State of Michigan, and Chairman, Committee on the 
                               Judiciary
    There seem to be a lot of controversy about immigration these days, 
with claims of amnesty being used to justify inaction. I propose that 
we all agree on the fact that America deserves an immigration system 
that is controlled, orderly, and fair.

        We need a system that puts an end to worker exploitation and 
        does not drive down wages. That unites families and meets the 
        needs of legitimate businesses. A system where border crossings 
        are orderly and enforcement is vigorous, yet fair and humane.

    It is my hope that as a result of today's hearing and others that 
Congress will hold in the coming weeks, we will be able to break some 
of the logjams on immigration and move toward attainable goals that can 
assist real people in the real world.
    Today we're focusing on the long-established H2B program.

        It allows employers to bring in temporary workers for certain 
        jobs in many seasonal industries, including in the landscaping, 
        construction, hotel, tourism, restaurant, forestry, crabbing, 
        and fishing industries, if qualified unemployed U.S. workers 
        cannot be found.

        The H2B program has had a positive economic effect on 
        communities around the country, as the industries that use 
        seasonal workers are often business incubators in their areas.

    But there is now a shortage of visas for legitimate businesses who 
try to fill their seasonal work through legal means instead of turning 
to the underground economy of illegal immigration. The ``returning 
worker'' provision expired last fall without being renewed. This has 
hurt businesses and the year-round American workers who they support. 
We need to get that problem resolved.

        One business owner who has seen the consequences of a 
        gridlocked immigration system is my friend Dan Musser, the 
        president of the one of Michigan's national historic 
        landmarks--the Grand Hotel.

        We should not lose sight of the fact that workers have rights, 
        no matter where they come from. If there are areas in which 
        labor protections could be improved, we need to hear about 
        them.

        Of particular note is the work of the Southern Poverty Law 
        Center.

        Many of us know them as a familiar voice against racial 
        violence and police brutality. It is good to see them engaging 
        against slavery and worker exploitation.

        Their recent report calls for meaningful protections against 
        worker exploitation, including mistreatment that can rise even 
        to the level of involuntary servitude.

    Again, I welcome the panelists, and look forward to today's 
discussion.

                                <F-dash>

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
 Subcommittee on Immigration, Citizenship, Refugees, Border Security, 
                         and International Law
    Chairwoman Lofgren, and ranking member King, thank you for 
convening today's very important hearing on the ``H-2B Program.'' The 
hearing will explore several issues related to the H-2B program, 
including concerns that the program fails to meet the needs of U.S. 
employers and lacks effective labor protections. The hearing will 
specifically analyze the need to reauthorize the ``returning worker 
exemption,'' which expired at the end of FY2007 and has decreased the 
number of H-2B workers available to U.S. businesses. The hearing will 
also investigate the abuses of H-2B worker and the issue of adding 
labor protections to existing H-2B legislation. I welcome today's 
distinguished panelists and I look forward to hearing their insightful 
testimony.
    The debate surrounding a guest worker program is not a new one. The 
issue of a guest worker program has resurfaced since many businesses 
are presently in dire need of employees.
    To get a clear understanding of the issues presented before us 
today, we need to examine it in its historical context. In 1986, the 
Immigration Reform and Control Act divided the H-2 temporary or guest 
worker program into the H2-A agricultural program and the H-2B non-
agricultural program. These are the two principal programs for 
temporarily importing low-skilled workers into the United States.
    The H2-A program allows for the temporary admission of foreign 
workers to perform agricultural work of a seasonal or temporary nature. 
The H2-B program covers foreign workers performing temporary non-
agricultural work. It is the H2-B program that is the subject of this 
hearing.
    Simply put, the H-2B program provides for the admission of guest 
workers to perform temporary non-agricultural work, if unemployed U.S. 
workers cannot be found. The program is used for seasonal, 
intermittent, one-time, and peak-load needs in various industries, like 
landscaping, construction, hotel, tourism, restaurant, forestry, 
crabbing, and fishing industries. An H-2B visa is valid for an initial 
period of up to one year. An individual's total period of stay, 
however, cannot exceed three consecutive months.
    The H-2B program is subject to a statutory limit of 66,000 guest 
workers. H-2B employers can petition for current H-2B workers to extend 
their stay, change their terms of employment, or change or add 
employers without affecting this cap. Recently, foreign workers reached 
the limit early in the fiscal year. As a consequence many workers were 
prevented from coming to the United States under this program and many 
industries and companies suffered.
    This returning worker provision has been renewed several times; 
however, it has finally expired without renewal on September 30, 2007. 
Many industries have suffered harm because they relied upon the workers 
in their businesses.
    In April 2007, Representative Bart Stupak introduced a bill, H.R. 
1843 the Save Our Small and Seasonal Business Act of 2007, which would 
permanently reauthorize the guest worker exemption. Bills to extend the 
provision temporarily have also been offered. This hearing allows us to 
hear from the experts in the field so we can make recommendations to 
the proposal which are currently being formulated.
    I would like to note that our top priority should be legalization 
of undocumented workers. Bringing more workers into the United States 
is only a temporary solution to our current problem. This is no real 
solution. Permanent reauthorization without more comprehensive 
immigration reform would not address labor rights abuses and foreign 
worker safety concerns. There would be no assurance that employers 
would not exploit these guest workers or that these workers would be 
guaranteed basic labor rights.
    As I have advocated in the past, what we should be focusing upon is 
legalizing the undocumented population and making legality the 
prevailing norm.
    Legalization will address the abuse by the employer and the 
employees. Legalization will make people feel safe to work. 
Legalization measures will allow employers to enjoy a more stable 
workforce. Families will remain united and individuals will be able to 
secure social protections such as the ability to join a labor union, 
have access to a driver's license, obtain a social security number, 
etc. Legalization will allow immigrants to fully incorporate into and 
participate in their communities.
    After instituting a legalization program, if it is then determined 
that there is a need for guest workers, we would not oppose a short 
term guest worker program. Any guest worker program which is instituted 
should allow for a decrease in the amount of time it takes to process 
an application, portability, full worker protections which can be 
enforced, extension of work authorization to spouses, access to social 
and health protections, and reasonable mechanisms for securing 
permanent residence for migrants who qualify for it and choose to do 
so.
    Again, I look forward to hearing our distinguished group of 
panelists. I yield the balance of my time.

                                <F-dash>

     Prepared Statement of the Honorable Madeleine Z. Bordallo, a 
                  Representative in Congress from Guam
    Chairwoman Lofgren and Ranking Member King, thank you for this 
opportunity to submit this testimony for the record on the variety of 
issues surrounding the H-2B visa program. The United States Congress 
has established an annual numerical cap of 66,000 workers. As you know, 
the intent of the H-2B visa program was initially developed to address 
worker shortages during times of war. Since the 1950s the program has 
expanded to provide temporary services. H-2B visa workers have become a 
critical component to our economy and future legislation should be able 
to realize this changing paradigm of their contributions to our 
economy.
    The current numerical cap of 66,000 workers annually has placed 
considerable strain on many small businesses particularly in the 
construction and tourism trades. In fact, the numerical cap which is 
set twice annually at 33,000 is normally reached within days of 
applications being made available. The current demand for H-2B visa 
workers exceeds the current supply and legislative relief is needed to 
increase the cap.
    The H-2B visa cap is particularly important for employers on Guam. 
Guam is preparing to receive upwards of 30,000 additional personnel as 
a result of major military realignments in the Asia-Pacific region. The 
realignment of military forces is the by-product of renewed bilateral 
agreements with the Government of Japan. The agreement with the 
Japanese calls for all military realignments to be completed by 2014. 
The most prominent of these realignments is the moving of 8,000 Marines 
and 9,000 of their family members from Okinawa, Japan to Guam. The 
Department of Defense anticipates spending over $10 billion dollars 
through 2014 to accommodate this realignment.
    The current capacity on Guam for construction work is estimated at 
$400 million dollars. The historical highest capacity on Guam, which 
was reached in the 1980s during the hotel construction boom, is 
approximately $800 million of construction spending per year. To put 
this into perspective, the Department of Defense anticipates nearly 
$2.5 billion alone in Fiscal Year 2010. In order to meet the demands of 
a compressed timeline the Department of Defense anticipates significant 
construction spending over the next five years.
    Moreover, relief from the numerical cap is needed for the 
corresponding civilian construction projects on Guam and which will 
parallel the military construction. Considerable work needs to be 
performed on Guam's infrastructure including its wastewater, 
electrical, water and transportation networks. This considerable 
civilian commitment will also need access to H-2B visa workers. Without 
relief from the cap it is likely that the military construction 
projects would take precedence over the civilian infrastructure 
projects which are necessary to support the increase in personnel 
coming to Guam, including contractors and military dependants. In order 
to meet this timeline goal and to facilitate greater construction 
capacity on Guam, relief from the numerical H-2B limitations is a 
priority.
    However, even if Guam was to receive relief from the H-2B visa 
numerical limitations it is important to provide these workers with 
appropriate benefits such as housing and transportation. I also want to 
ensure the employers provide H-2B visa workers with health care. 
Moreover, I strongly believe that H-2B visa workers should be paid 
prevailing wage rates for the geographic location where they are 
working. I fundamentally believe that these are basic rights that 
should be extended to all workers across this country including H-2B 
visa workers. I hope that Congress will address these issues as we 
consider national legislation to reform the H-2B program.
    I want to thank Representative Bart Stupak from Michigan for his 
continued leadership on issues surrounding H-2B visa workers. And, I 
thank you Madam Chairwoman for your efforts to oversee the H-2B visa 
worker program and hope that there will be a renewed effort to look 
into relief of the numerical caps all the while requiring H-2B 
employers to provide health insurance and pay a prevailing wage.

                                <F-dash>

Prepared Statement of the Honorable James E. Clyburn, a Representative 
              in Congress from the State of South Carolina
    Thank you, Chairwoman Lofgren, Ranking Member King and Members of 
the Immigration Subcommittee, for holding this hearing today and for 
all the hard work you have done throughout the 110th Congress to 
examine the important and complicated issues surrounding immigration.
    Last year, newly elected Democratic majorities in the House and 
Senate were committed to working with the President and Republicans to 
find a comprehensive solution to the immigration problems plaguing our 
nation. Regrettably, partisan politics and anti-immigrant rhetoric 
overshadowed this effort and Senate Republicans blocked action on a 
comprehensive reform package. The American people are now paying a 
terrible price. The Democratic Congress remains committed to addressing 
this issue. In the coming months, various House committees will work 
together to hold a comprehensive series of hearings to examine 
immigration concerns and legislation.
    I am grateful to the Subcommittee for holding the first in this new 
series of hearings on the H-2B visa program, an issue of vital 
importance to my home state of South Carolina. The H-2B visa program 
allows employers to secure workers to perform short-term non-
agricultural work, if qualified unemployed American workers cannot be 
found. Seasonal workers are important to the economy in South Carolina, 
where tourism ranks as the number one industry. Many resorts, hotels, 
restaurants, and businesses in the coastal regions of South Carolina 
use the H-2B program to supplement their year-round domestic workforce 
during the peak summer season. Without these workers, many of these 
local industries will not have the resources they need to serve the 
many tourists and visitors coming into our state.
    While the H-2B program is capped at 66,000 workers per year, 
Congress established a ``returning worker exemption'' to help meet the 
additional labor needs of seasonal businesses across the country. The 
exemption allowed returning H-2B workers to come to the U.S. outside 
the cap, as long as they had counted against the cap in one of the 
preceding 3 years. In 2006, Congress included a one year extension of 
this exemption in the National Defense Authorization Act for FY2007 
(P.L. 109-364). The H-2B returning worker exemption expired on 
September 30, 2007, and to date has not been extended. Without the 
exemption in place, the 66,000-visa cap on the program does not allow 
for a sufficient number of seasonal employees to sustain the many 
industries that rely on this source of labor.
    While I support a temporary extension of the returning worker 
exemption to provide immediate relief in this time of economic 
instability, I will continue to work on a bipartisan basis towards a 
comprehensive solution. Our immigration system needs to honor the 
promise of America and recognize the enormous contributions that 
immigrants make to our nation. But it must do so in a way that makes 
our nation safer, protects all workers, and respects the rule of law.

                                <F-dash>

  Prepared Statement of the Honorable Ron Klein, a Representative in 
                   Congress from the State of Florida
    Thank you, Chairwoman Lofgren and Ranking Member King, for holding 
this important hearing on the H-2B visa program, and for the 
distinguished Members of this subcommittee for your continued interest 
in the many challenges facing America's immigration system.
    My concern with the H-2B visa program and my support for Mr. 
Stupak's bill, H.R. 1843, the ``Save Our Small and Seasonal Businesses 
Act of 2007,'' stems directly from my conversations with small business 
owners in Florida who rely on foreign workers with H-2B visas to 
supplant the jobs that local U.S. workers cannot fill.
    In my Congressional district, which encompasses over seventy-five 
miles of coastline in South Florida, we rely heavily on dollars brought 
in through travel, tourism, and recreational activities. And the 22nd 
Congressional District is not alone in this regard. In 2006, nearly 84 
million people visited Florida from all over the world, generating $65 
billion in economic activity, and helping to employ nearly one million 
workers. Whether it's the southernmost point in the Florida Keys or the 
beautiful beaches and resort towns along the panhandle, Florida and 
tourism go hand-in-hand.
    Paramount to sustaining Florida's economy is the help that H-2B 
workers provide to Florida businesses during the peak winter and spring 
months. Unfortunately, this legal stream of temporary, nonagricultural 
foreign workers has become ensnared in the broader immigration debate.
    Madame Chairwoman, reasonable people can disagree over the ways to 
deal with the millions of illegal aliens currently in this country or 
coming over the border. Personally, I have joined many of my colleagues 
from both sides of the aisles by supporting legislation that makes 
securing the border a priority. But I recognize that other colleagues 
could reasonably argue for the need to stabilize the Mexican economy so 
that the forces that ``push'' illegal immigrants over the border can be 
alleviated.
    The H-2B visa program, however, should not be included in this 
broader immigration debate because it involves temporary, legal, 
nonimmigrant workers. That is, these foreign workers have followed the 
rules, waited patiently in line, and have come to this country without 
the intention of staying. After their visas have expired, they will 
return to their home countries. If they want to return the next year, 
they must begin the process anew.
    Moreover, prospective H-2B employers must demonstrate to the 
Department of Labor (DOL) that no American workers are willing to take 
the job. For example, according to the DOL, employers are required to 
``advertise the job opportunity in a newspaper of general circulation 
or in a readily available professional, trade or ethnic publication, 
whichever the State Workforce Agency (SWA) determines is the most 
appropriate for the occupation and most likely to bring responses from 
U.S. workers.'' \1\
---------------------------------------------------------------------------
    \1\ Department of Labor, ``H-2B FAQs--Round II,'' December 17, 
2007, 
http://www.foreignlaborcert.doleta.gov/pdf/h2b_faqs_round2.pdf., 
(accessed April, 15 2008)
---------------------------------------------------------------------------
    So in essence, the H-2B visa program isn't about immigration at 
all; rather, it's about our economic sustainability for industries like 
tourism, seafood processors, landscapers, resorts, and pool companies 
that rely on these workers during peak or seasonal periods. As we inch 
ever closer toward recession, I strongly believe that we in Congress 
must do what is necessary to help stimulate these businesses by 
allowing for certain exemptions for returning H-2B workers. Otherwise, 
they may be forced to lose contracts, scale back operations, or shut 
down, which would ultimately hurt full-time, American workers.
    This is not an academic argument. I have heard from countless 
restaurant, hotel, and business owners throughout my district who have 
told me that their businesses are suffering because they cannot obtain 
enough workers to meet customer demand. As I mentioned before, my 
district and Florida as a whole rely heavily on the revenue that these 
businesses generate, and the ripple effect from their losses will be 
felt in other businesses sectors and in the wallets of regular 
Floridians.
    These business owners would not have these problems, however, if 
the exemption for returning workers had not expired on September 30, 
2007. As the subcommittee well knows, the FY2005 Emergency Supplemental 
Appropriations Act for Defense, the Global War on Terror, and Tsunami 
Relief included a two-year pilot program, exempting returning H-2B 
workers from the annual cap if they had been counted previously during 
any one of the three prior fiscal years. The John Warner National 
Defense Authorization Act for FY2007 extended this exemption until 
September 30, 2007. Unfortunately, the Congress failed to act again on 
this issue, and the exemption expired, leaving small and seasonal 
business owners without an important economic relief.
    The 110th Congress could act to save seasonal and small businesses 
by passing H.R. 1843, a bill introduced by Mr. Stupak of Michigan that 
would permanently extend the pilot program for returning H-2B workers. 
As a cosponsor, I support this legislation and urge the Judiciary 
Committee to report the bill to the full House as soon as possible.
    Thank you again, Chairwoman Lofgren and Ranking Member King, for 
holding this hearing and for allowing me the opportunity to address 
this distinguished subcommittee.

                                <F-dash>

Prepared Statement of the Honorable Carol Shea-Porter, a Representative 
              in Congress from the State of New Hampshire
    Thank you, Chairwoman Lofgren, Ranking Member King and Members of 
the Subcommittee for holding this hearing today. As a Member of the 
Committee on Education and Labor and as the Representative of the First 
District of New Hampshire, I am pleased to submit this statement on 
behalf of my constituents and the small businesses that I represent.
    In our Seacoast towns, northern mountain resorts, and across the 
state, the tourism industry thrives in New Hampshire. Because of the 
seasonal nature of our businesses such as ski resorts, summer 
landscaping, restaurants and hotels, many employers have trouble 
filling vital staff positions. This is due partly to the temporary 
nature of the work, the long commutes that may be required and, in some 
cases, the lack of a labor pool. The H-2B program plays a large part in 
providing the workforce that sustains these businesses. That is why it 
is vitally important that this hearing be held today and that we work 
quickly to relieve the current strains that small businesses, like many 
in New Hampshire, are enduring.
    It is also important that, as we consider the H-2B program, we take 
into consideration some of the testimony that we received on the 
Education and Labor Committee in a June 7, 2007 hearing on the H-2 
programs entitled, ``Protecting U.S. and Guest Workers: the Recruitment 
and Employment of Temporary Foreign Labor.'' During that hearing, we 
heard about a March 12, 2007 report from the Southern Poverty Law 
Center, criticizing the program for reported abuses of guest workers, 
accusing employers of abuse and exploitation.
    While these accounts must be considered and the well-being of 
workers enrolled in these programs protected, I have met and spoken 
with many of the business owners in New Hampshire who use the H-2B 
program to find seasonal workers. They are good employers who care 
about their staff. I have also heard from guest workers, who have only 
good things to say about their employers and their work experiences. 
So, as the larger issue of immigration reform is debated, it is 
important that we extend the exemptions to the cap on the H-2B program.
    Without the exemption in place, the 66,000-visa cap on the program 
does not allow for a sufficient number of seasonal employees to sustain 
the many industries that rely on this source of labor. In New Hampshire 
alone, we see over 1,000 applicants a year for H-2B workers. For 2008, 
we have already had 640 applicants. Last year, with the exemption in 
place, an additional 69,000 workers were granted permits to work in 
this country. Without similar relief this year, many businesses may be 
forced to have their year-round, full-time staff take on additional 
responsibilities, putting extra strain on employees and distracting 
them from essential duties. In short, our small seasonal businesses 
will suffer. Some may have to scale back the services they offer to 
guests and customers, and some may even have to close their doors.
    It is incredibly important to the New Hampshire economy that we act 
quickly to resolve this issue. Thank you again for holding this 
hearing, and I look forward to working with all of you on this issue.

                                <F-dash>

     Prepared Statement of the Honorable Charles W. Boustany, Jr., 
        a Representative in Congress from the State of Louisiana
    Madam Chairwoman, today thousands of small businesses around the 
country are at risk. Our small seasonal businesses lack the seasonal 
workforce they have come to depend on year after year. Without these 
temporary workers, seasonal businesses are unable to meet the peak 
demand they must to survive. Without these temporary workers, permanent 
American jobs are at risk as these businesses are forced to close their 
doors.
    Today, this subcommittee will hear testimony about immigration and 
labor concerns, but the ``Save Our Small and Seasonal Businesses Act'' 
is about promoting American jobs and local economies with the 
necessary, temporary, legal workforce that has been available 
previously. The stubbornness of a small group of my colleagues stands 
in the way of this important legislation and our local small 
businesses. Around south Louisiana, sugar cane is not being processed, 
rice crops can't be sorted or bagged, and crawfish and crabs are being 
turned away by processors who simply don't have the workers to clean 
and pick the fishermen's catch. In my remarks, I will outline the 
safeguards currently in place to protect American jobs and temporary, 
seasonal workers as well as address the dire need to reauthorize this 
important program to keep our economy from stalling.
    Louisiana's sugar cane mills have long-standing relations with 
Central and South American personnel whose unique expertise is crucial 
to the sugar crystallization process. Those with this skill save the 
mills a great deal of time and money by ensuring the crystallization is 
done properly. Failure to manage the crystallization process properly 
requires the whole process be started all over again, wasting valuable 
man hours and increasing costs during the hectic grinding season. No 
advanced degree is offered for this expertise, otherwise these workers 
could utilize ``highly skilled'' provisions similar to software 
companies and others, but these professionals are just as valuable, in 
their niche, as tech-industry workers with graduate degrees. Typically, 
these experts travel from their home countries, where they perform this 
function for their local mills and to the US to fill the same niche in 
the U.S. sugarcane industry. Because our mills need the H-2B workers in 
place immediately prior to grinding season in the late summer and early 
fall, the arbitrary quota is typically filled long before our mills can 
begin the process. Similar problems are being reported by my District's 
rice mills. With this year's shortage of H-2B visas, these mills don't 
have the necessary, seasonal workers to bag and process this year's 
crop efficiently.
    The Louisiana alligator industry also depends heavily on seasonal 
workers. Each September my state conducts an intensive annual harvest 
of over 30,000 wild alligators and during the early summer alligator 
farmers collect 300,000-500,000 wild alligator eggs. Overall, Louisiana 
alligator farmers harvest over 250,000 alligators from July through 
February, but the exact timing of each farm's harvest varies depending 
on their production strategy. In general, alligator farmers use H-2A 
workers to the extent possible for egg harvesting and crop production 
and harvesting. However, anyone in the industry that processes 
alligator skins or meat that do not come from their own farm must use 
H-2B workers. This includes processors, dealers, trappers and farmers 
processing alligators produced on farms or from the wild harvest. 
Alligator meat production alone contributes approximately $6 million 
annually to the $60 million alligator industry in Louisiana.
    My office receives calls daily from struggling crawfish and seafood 
processors. We are now in the peak of crawfish season. While Congress 
plays politics with the workers these businesses need, these local 
businesses are forced to close. Businesses they support, rice farmers, 
restaurants, and local grocery stores will also suffer. There will be a 
loss of 75% of the normal peeling capacity of Louisiana crawfish 
processors due to the lack of H-2B legal returning labor. If there is 
no peeling, the ponds will over populate, and the crawfish destined for 
the live market will be stunted. These ponds will then take several 
years to recover their productivity. We also expect aggressive action 
by the Chinese crawfish industry, Americas largest competitor, to step 
in to meet demand. While these competitors without regulation look for 
opportunities to invade the American crawfish market, we are dropping 
our businesses in their laps.
    Some of our colleagues raise specific concerns about the intentions 
of these employers. Many insist the H-2B program is a way for employers 
to exploit cheap labor. I have spoken with numerous employers who pay 
well above the minimum wage, pay overtime for any hours over 40 per 
week, provide housing for their workers and provide transportation at 
no cost to their workers. To say these employers are merely exploiting 
cheap labor is both naive and unfair to these hardworking business 
owners who endure extra costs to run their businesses.
    Many will also share their concern that the problem lies in 
ensuring these workers are returning to their country after the visa 
has expired. Fortunately, the returning worker provision offers a 
critical incentive for each worker to return home. Without returning 
home, the worker cannot apply for the cap extension. The returning 
worker program allows America's businesses to regulate the need for 
temporary workers, providing an essential safeguard against under-
employment. We are offering a benefit to those workers who choose to 
follow the rules and abide by the terms of their visas as well as their 
employers.
    Louisiana is only one of many states affected by this crisis, 
whether ski resorts in the west, tourist destinations on the Upper 
Peninsula of Michigan or Cape Cod, or seafood processing in Virginia 
and Maryland, thousands of communities around the nation are struggling 
to stay afloat. As Americans talk about economic crisis and Congress 
prepares multiple packages for economic stimulus, we must look at what 
drives our economy--our nation's small businesses. While the government 
pumps economic stimulus money into our economy, Americans are losing 
jobs and closing businesses they worked their entire lives to support. 
With a simple, legal, and responsible provision proven to work, we can 
support these small businesses. I encourage my colleagues to carefully 
look at the H-2B program and understand the great responsibility we 
have to these American small business owners.

                                <F-dash>

  Prepared Statement of the Honorable Tim Murphy, a Representative in 
                Congress from the State of Pennsylvania
    Today thousands of small businesses around the country are at risk. 
Our small seasonal businesses lack the seasonal workforce they have 
come to depend on year after year. Without these temporary workers, 
seasonal businesses are unable to meet the peak demand they must to 
survive. Without these temporary workers, permanent American jobs are 
at risk as these businesses are forced to close their doors.
    The ``Save Our Small and Seasonal Businesses Act'' focuses on 
promoting American jobs and local economies with the necessary, 
temporary, legal workforce that has been available previously. In 
Southwestern Pennsylvania many local businesses, specifically 
landscapers and nursery owners rely on a temporary workforce for their 
businesses to thrive. At a time when our economy is already declining, 
there is a dire need to include the returning worker exemption in the 
H-2B visa program.
    My office receives calls on a regular basis from struggling 
landscaping, nursery and other business owners. Some of the businesses 
affected in the Pittsburgh area are the following:

    Valley Brook Country Club, of McMurray, PA
    The Landscape Center, Inc., of Bethel Park, PA
    Justin Beall's Landscape Service, of Pittsburgh, PA
    Butler Landscaping, of Pittsburgh, PA
    Evanovich Landscaping, of Pittsburgh, PA
    The Club at Nevillewood, of Nevillewood, PA
    Inches Nursery, of Moon Township PA
    Friendship Farms, of Pleasant Unity, PA
    PSH & Associates, of McKees Rocks, PA
    Eichenlaub Inc, of Pittsburgh, PA
    Mike's Landscaping, of Sewickley, PA
    Schmidt Landscaping Inc., of McDonald, PA
    Englert Nursery, Bethel Park, PA
    Kasper Landscaping, Bethel Park, PA
    Hess Landscape Nursery, Clairton, PA
    Ed Bayer Landscapes, of North Hills, PA
    Federouch Landscape Supplies, of McMurray, PA
    Jerry's Lawn Care, of Penn Hills, PA
    Sugar Run Nursery, of McMurray, PA
    A&S Landscaping, of Cannonsburg, PA

    According to the U.S. Small Business Administration's Office of 
Advocacy, about half of all private sector employees are employed by 
small businesses and ninety night point nine percent of all U.S. 
businesses have fewer than 500 employees. Over the last decade, this 
group of entrepreneurs has created roughly sixty percent of the new 
jobs in our economy. These are the same businesses that are now being 
threatened by the cap on H-2B visas for returning workers. While the 
government pumps economic stimulus money into our economy, Americans 
are losing jobs and closing businesses they worked their entire lives 
to support.
    With a simple, legal, and responsible provision proven to work, 
Congress can support these small businesses. I support the extension of 
the returning worker provision for the H-2B visa program and understand 
the great responsibility I have to these American small business 
owners.

                                <F-dash>

  Prepared Statement of the Honorable Joe Wilson, a Representative in 
               Congress from the State of South Carolina
    I would like to begin by thanking the committee for holding this 
hearing. I think it is fair to say that this is a topic that has a 
number of different consequences--all of which should be addressed at 
the Federal and State level.
    Congress has been debating immigration reform for quite some time 
now, and the debate has been contentious. There are individuals of good 
faith on every side of this issue. So, it is not with precipitous haste 
that we should make any final decision regarding the overall reform of 
our immigration policy in this country.
    There are areas, however, that should be addressed in the immediate 
future. In particular, I am referring to the topic of today's hearing: 
the H-2B visa program. This is a program that has been very successful 
in boosting the tourism, restaurant, and hotel industries in the state 
of South Carolina and in communities all around the country. It is a 
lawful and orderly way to provide a temporary workforce. So, with many 
communities relying heavily on these types of industries, we should 
reauthorize the returning-worker provision of the H-2B visa program, a 
legislative fix previously passed by Congress, even while we debate 
larger reforms to our nation's immigration policy.
    Despite what some have said, an extension of the returning-worker 
provision is not an unchecked expansion of our immigration policy nor 
is it a reckless opening of the flood gates for greater and greater 
numbers of immigrants. It is not a new program. This is an extension of 
an existing program which expired a few months ago. It is not an 
amnesty program. It is, in fact, exactly the type of immigration reform 
we should be focusing on: a lawful and fair framework for those seeking 
to work temporarily within the United States on a mutually beneficial 
basis within our communities. The users of these visas work seasonal 
jobs, complementing a full-time workforce, and must return to their 
home countries every year. These users and their employers must follow 
careful procedures ensuring they do not take jobs away from Americans 
and must follow strict immigration laws that are currently in place.
    It has become clear that the temporary extensions authorized in 
years past will force us to have this same debate each year. Meanwhile, 
a program such as this that has a proven record of positive, legal 
support to our economy will be constantly in jeopardy. Small businesses 
that benefit immensely from the H-2B program will be unable to rely on 
or plan for their seasonal employment. That is why I and several of my 
colleagues have called for a permanent extension of the returning-
worker provision. American small businesses, the foundation of our 
nation's economy, benefit most when they can plan for their future. 
When they are successful, our nation's economy grows stronger.
    I have actively worked with my colleagues in Congress to bring a 
clean extension of the H-2B returning-worker provision to a vote. I am 
troubled that this extension has been held up. The tourism, restaurant, 
and hotel industries in South Carolina--particularly in the 
Lowcountry--benefit immensely from a temporary and legal workforce that 
these visas provide. To let the extension provision stay expired 
without action ignores the needs of our nation's business community, 
its employees, and damages our economy.

                                <F-dash>

Prepared Statement of the Honorable George Miller, a Representative in 
                 Congress from the State of California

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

Prepared Statement of the Honorable Michael N. Castle, a Representative 
                 in Congress from the State of Delaware

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

Prepared Statement of the Honorable Barbara Cubin, a Representative in 
                   Congress from the State of Wyoming
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

 Prepared Statement of the Honorable Dennis Moore, a Representative in 
                   Congress from the State of Kansas

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

  Prepared Statement of the Honorable Paul Hodes, a Representative in 
                Congress from the State of New Hampshire

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

Prepared Statement of the Honorable Charlie Melancon, a Representative 
                in Congress from the State of Louisiana

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

 Prepared Statement of the Honorable Thelma D. Drake, a Representative 
                 in Congress from the State of Virginia

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

    Prepared Statement of the Honorable C.A. Dutch Ruppersberger, a 
         Representative in Congress from the State of Maryland
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

  Prepared Statement of the Honorable Mark Udall, a Representative in 
                  Congress from the State of Colorado

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

Prepared Statement of the Honorable Robert J. Wittman, a Representative 
                 in Congress from the State of Virginia

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

 Letter from the Honorable Robert C. ``Bobby'' Scott, a Representative 
 in Congress from the State of Virginia, to the Honorable Zoe Lofgren, 
Chairwoman, Subcommittee on Immigration, Citizenship, Refugees, Border 
                    Security, and International Law

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

          Legal Complaint submitted by Mary Bauer, Director, 
                       Immigrant Justice Project

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                 <all>

</pre></body></html>
